<html>
<title> - REASSESSING SOLITARY CONFINEMENT II: THE HUMAN RIGHTS, FISCAL, AND PUBLIC SAFETY CONSEQUENCES</title>
<body><pre>[Senate Hearing 113-882]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-882

                  REASSESSING SOLITARY CONFINEMENT II:
                     THE HUMAN RIGHTS, FISCAL, AND
                       PUBLIC SAFETY CONSEQUENCES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2014

                               __________

                          Serial No. J-113-50

                               __________

         Printed for the use of the Committee on the Judiciary

                      
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                                  

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-394 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>                      
                      
                      
                    
                      
                      COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER A. COONS, Delaware       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN G. HATCH, Utah
                 Joseph Zogby, Democratic Chief Counsel
                 Scott Keller, Republican Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                      FEBRUARY 25, 2014, 2:30 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........    10
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................    81

                               WITNESSES

Witness List.....................................................    39
DeRoche, Hon. Craig, President, Justice Fellowship, Novi, 
  Michigan.......................................................    22
    prepared statement...........................................    44
Kerman, Piper, Author, Brooklyn, New York........................    20
    prepared statement...........................................    51
Levin, Marc, Director, Center for Effective Justice, Texas Public 
  Policy Foundation, Austin, Texas...............................    24
    prepared statement...........................................    64
Raemisch, Rick, Executive Director, Colorado Department of 
  Corrections,
  Colorado Springs, Colorado.....................................    18
    prepared statement...........................................    72
Samuels, Hon. Charles E., Jr., Director, Federal Bureau of 
  Prisons, Washington, DC........................................     5
    prepared statement...........................................    40
Thibodeaux, Damon, Minneapolis, Minnesota........................    26
    prepared statement...........................................    76

                               QUESTIONS

Questions submitted to Hon. Craig DeRoche by Senator Franken.....    84
Questions submitted to Rick Raemisch by Senator Franken..........    85
Questions submitted to Hon. Charles E. Samuels, Jr., by Senator 
  Franken........................................................    86

                                ANSWERS

Responses of Hon. Craig DeRoche to questions submitted by Senator 
  Franken........................................................    87
Responses of Rick Raemisch to questions submitted by Senator 
  Franken........................................................    88
Responses of Hon. Charles E. Samuels, Jr., to questions submitted 
  by Senator Franken.............................................    89

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

African Methodist Episcopal Church, Social Action Commission, 
  Nashville, Tennessee, statement................................    90
Allen-Bell, Angela A., Professor, Southern University Law Center, 
  Baton Rouge, Louisiana, statement..............................   150
American Bar Association (ABA), Chicago, Illinois, statement.....    97
American Civil Liberties Union (ACLU), Washington, DC, statement.   105
American Civil Liberties Union of Texas, Houston, Texas; Texas 
  Civil Rights Project, Austin, Texas; and Texas Defender 
  Service, Houston and Austin, Texas; joint statement............   346
American Federation of Government Employees (AFGE) Council of 
  Prison Locals, Washington, DC, statement.......................   124
American Federation of State, County and Municipal Employees 
  (AFSCME) Texas Corretional Employees Local 3807, Huntsville, 
  Texas, statement...............................................    95
American Friends Service Committee (AFSC), Washington, DC, 
  statement......................................................   130
American Humanist Association, Washington, DC, statement.........   136
Amnesty International, London, United Kingdom, statement.........   138
Architects/Designers/Planners for Social Responsibility (ADPSR), 
  Berkeley, California, statement................................   160
Association of State Correctional Administrators (ASCA), 
  Hagerstown, Maryland, statement................................   164
Black and Pink, Dorchester, Massachusetts, statement--redacted...   173
California Alliance for Youth and Community Justice (CAYCJ), 
  statement......................................................   179
California Prison Focus, Oakland, California, statement..........   182
Campaign for the Fair Sentencing of Youth (CFSY), Washington, DC, 
  statement......................................................   577
Campaign for Youth Justice (CFYJ), Washington, DC, statement.....   189
Center for Children's Law and Policy (CCLP), Washington, DC, 
  statement......................................................   195
Center for Constitutional Rights (CCR), New York, New York, 
  statement......................................................   205
Citizens for Prison Reform, Lansing, Michigan, statement.........   208
Cohen, Fred, Esq., LL.B., LL.M, Tucson, Arizona, statement.......   268
Correctional Association of New York, New York, New York, 
  statement......................................................   218
Coyte, Matthew E., Coyte Law P.C., Albuquerque, New Mexico, 
  statement......................................................   235
Dayan, Colin, Robert Penn Warren Professor in the Humanities, 
  Vanderbilt University, Professor of Law, Nashville, Tennessee, 
  statement......................................................   210
Detention Watch Network (DWN), Washington, DC, statement.........   248
Equity Project, The, San Francisco, California, and Washington, 
  DC, statement..................................................   580
Federal Bureau of Prisons, U.S. Department of Justice, 
  Washington, DC, fact sheet.....................................   237
Friends Committee on National Legislation (FCNL), Washington, DC, 
  statement......................................................   287
General Board of Church and Society of The United Methodist 
  Church, Washington, DC, statement..............................   293
Gordon, Shira, student, University of Michigan Law School, Ann 
  Arbor, Michigan, statement.....................................   560
Guenther, Lisa, Ph.D., Associate Professor of Philosophy, 
  Vanderbilt University, Nashville, Tennessee, statement.........   257
Helping Educate to Advance the Rights of the Deaf (HEARD), 
  Washington, DC, statement......................................   297
Horn, Martin F., former Commissioner of Correction and Probation, 
  New York, New York, and Michael B. Mushlin, Law Professor, Pace 
  Law School, White Plains, New York, statement..................   424
Human Rights Campaign (HRC), Washington, DC, statement...........   301
Human Rights Defense Center (HRDC), Lake Worth, Florida, 
  statement......................................................   304
Human Rights First, New York, New York, and Washington, DC, 
  statement......................................................   314
Immigration Equality, New York, New York, statement..............   332
Innocence Project, New York, New York, six statements............   586
Interfaith Communities United for Justice and Peace (ICUJP), Los 
  Angeles, California, statement.................................   336
John Howard Association of Illinois (JHA), Chicago, Illinois, 
  statement......................................................   343
Just Detention International (JDI), Los Angeles, California, 
  statement......................................................   366
Justice and Mercy, Inc., Lancaster, Pennsylvania, statement......   373
Juvenile Law Center, Philadelphia, Pennsylvania, statement.......   384
King, Robert, and Albert Woodfox, The Two Surviving Members of 
  ``The Angola 3,'' statement....................................   543
Kupers, Terry A., M.D., M.S.P., Institute Professor, The Wright 
  Institute, Oakland, California, statement......................   260
Kysel, Ian M., Dash/Muse Fellow, Georgetown Law Human Rights 
  Institute, Washington, DC, statement...........................   321
Lambda Legal Defense & Education Fund, Inc., New York, New York, 
  statement......................................................   393
Legal Aid Society, The, New York, New York, statement............   594
Lutheran Immigration and Refugee Service (LIRS), Baltimore, 
  Maryland, statement............................................   412
Maine Council of Churches, Portland, Maine, statement............   416
Maine Prisoner Advocacy Coalition (MPAC), Morrill, Maine, 
  statement......................................................   417
Mothers of Incarcerated Sons Society (MISS), Redford, Michigan, 
  statement......................................................   429
National Association of Evangelicals (NAE), Washington, DC, 
  statement......................................................   431
National Center for Lesbian Rights (NCLR), San Francisco, 
  California, statement..........................................   434
National Coalition To Protect Civil Freedoms (NCPCF), Selkirk, 
  New York, statement............................................   437
National Council of the Churches of Christ in the USA, New York, 
  New York, statement............................................   447
National Disability Rights Network (NDRN), Washington, DC, 
  statement......................................................   450
National Immigrant Justice Center (NIJC), Chicago, Illinois, 
  statement......................................................   452
National Juvenile Justice Network, Washington, DC, statement.....   461
National Lawyers Guild (NLG), New York, New York, statement......   465
National Religious Campaign Against Torture (NRCAT), J. Amos 
  Caley, M.DIV., M.S.W., New Jersey Organizer, statement.........   474
National Religious Campaign Against Torture (NRCAT), Washington, 
  DC, statement..................................................   480
New York Campaign for Alternatives to Isolated Confinement 
  (CAIC), New York, New York, statement..........................   490
New York Civil Liberties Union (NYCLU), New York, New York, 
  statement......................................................   494
Pacific Juvenile Defender Center (PJDC), San Francisco, 
  California, statement..........................................   500
Perkins, Hon. Bill, New York State Senate, New York, New York, 
  statement......................................................   170
Physicians for Human Rights (PHR), New York, New York, statement.   504
Power, Melinda, lawyer, West Town Law Office, Chicago, Illinois, 
  February 23, 2014, letter......................................   644
Prisoners' Legal Services of Massachusetts, Boston, 
  Massachusetts, statement.......................................   525
Prisoners' Legal Services of New York (PLS), Albany, New York, 
  statement......................................................   510
Psychologists for Social Responsibility, Washington, DC, 
  statement......................................................   529
Reiter, Keramet A., J.D., Ph.D., Assistant Professor, University 
  of California, Irvine, California, statement...................   386
Rosen Bien Galvan & Grunfeld LLP, San Francisco, California, 
  statement......................................................   545
Ross, Richard, Researcher and Professor of Art, Santa Barbara, 
  California, statement..........................................   531
Rovner, Laura, Associate Professor of Law and Director of 
  ClinicalPrograms, University of Denver Sturm College of Law, 
  Denver, Colorado, statement....................................   401
Texas Civil Rights Project-Houston, Houston, Texas, statement....   570
Texas Jail Project, Austin, Texas, statement.....................   573
Theoharis, Jeanne, Professor of Political Science, Brooklyn 
  College, City University of New York, Brooklyn, New York, et 
  al., statement.................................................   337
Transgender Law Center, Oakland, California, et al., statement...   356
T'ruah: The Rabbinic Call for Human Rights, New York, New York, 
  statement......................................................   604
United Nations Human Rights, Office of the High Commissioner, 
  Geneva, Switzerland, statement.................................   616
United States Immigration and Customs Enforcement (ICE), U.S. 
  Department of Homeland Security, Kevin Landy, Assistant 
  Director, Office of Detention Policy and Planning, Washington, 
  DC, statement..................................................   608
Urban Justice Center, New York, New York, statement..............   622
Virginia Council of Churches, Richmond, Virginia, statement......   627
Washington Lawyers' Committee for Civil Rights and Urban Affairs, 
  Washington, DC, statement......................................   634
Williams, Don, and Jean Williams, February 25, 2013, letter......   254
Youth Justice Clinic at Benjamin N. Cardozo School of Law, New 
  York, New York, statement......................................   646
Youth Justice Coalition, Los Angeles, California, statement......   657
Youth Law Center, San Francisco, California, statement...........   661

 
                  REASSESSING SOLITARY CONFINEMENT II:
                     THE HUMAN RIGHTS, FISCAL, AND
                       PUBLIC SAFETY CONSEQUENCES

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2014

                      United States Senate,
Subcommittee on the Constitution, Civil Rights and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Franken, Hirono, and Cruz.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good afternoon. This hearing of the 
Subcommittee on the Constitution, Civil Rights and Human Rights 
will come to order.
    Today's hearing is entitled ``Reassessing Solitary 
Confinement, Part II: The Human Rights, Fiscal, and Public 
Safety Consequences.'' In a moment I will make an opening 
statement, and then I will recognize Senator Cruz, when he 
arrives, as the Subcommittee Ranking Member for his opening 
statement.
    Thank you to those who are here in person and those 
following the hearing on Facebook, Twitter, and using the 
hashtag #solitary. There was so much interest in today's 
hearing that we moved to this larger room to accommodate 
everyone. If someone cannot get a seat in the hearing room, we 
have an overflow room in 226 Dirksen.
    I also want to note that if you look around the hearing 
room today, you will see a number of pictures of children 
during the course of this hearing who are being held in 
solitary confinement. I want to thank the photographer, Richard 
Ross, for allowing us to use these photos.
    This Subcommittee has worked to address human rights issues 
around the world, as we did with our hearing last month on the 
Syrian refugee crisis. And we have an obligation to honestly 
consider our own human rights record at home.
    The United States has the highest per capita rate of 
incarceration in the world. With 5 percent of the world's 
population, we have close to 25 percent of its prisoners. 
African Americans and Hispanic Americans are incarcerated at 
much higher rates than whites. And the United States holds more 
prisoners in solitary confinement than any other democratic 
nation. These are human rights issues that we cannot ignore.
    Congress has been unable to find common ground on many 
important issues, but criminal justice reform is one area where 
we can show the American people that our Government still 
functions.
    Just a few weeks ago--I am sorry. We have made some 
progress. In 2010, Congress unanimously passed the Fair 
Sentencing Act, bipartisan legislation that I co-authored with 
Senator Jeff Sessions that greatly reduced the sentencing 
disparity between crack and powder cocaine.
    And just a few weeks ago, the Judiciary Committee reported 
the Smarter Sentencing Act, bipartisan legislation that I have 
introduced with Senator Mike Lee of Utah that would reform 
Federal drug sentencing and focus law enforcement resources on 
the most serious offenders. I want to thank my Ranking Member 
for cosponsoring that Smarter Sentencing Act as well.
    I also want to thank Senator Cruz for his bipartisan 
cooperation on putting this hearing together today.
    Almost 2 years ago, this Subcommittee held the first-ever 
congressional hearing on solitary confinement. We heard 
testimony about the dramatic increase in the use of solitary 
confinement that began in the 1980s. We learned that vulnerable 
groups like immigrants, children, sex abuse victims, and 
individuals with serious and persistent mental illness are 
often held in isolation for long periods of time.
    We heard about the serious fiscal impact of solitary 
confinement. It costs almost three times as much to keep a 
Federal prisoner in segregation than in the general population.
    And we learned about the human impact of holding tens of 
thousands of men, women, and children in small windowless cells 
23 hours a day--for days, for months, and for years--with very 
little, if any, contact with the outside world. This extreme 
isolation can have serious psychological impacts on an inmate. 
According to several studies, at least half of all prison 
suicides occur in solitary confinement.
    And I will never forget the testimony in our last hearing 
of Anthony Graves, who was held in solitary for 10 of his 18 
years in prison before he was exonerated. Mr. Graves told this 
Subcommittee, ``No one can begin to imagine the psychological 
effects isolation has on another human being. Solitary 
confinement does one thing: it breaks a man's will to live.''
    Now, I have been Chairman of this Subcommittee for 7 years. 
I cannot remember more compelling testimony.
    At the last hearing, we heard from the Director of the 
Bureau of Prisons, Charles Samuels, who is with us again today. 
I was not particularly happy with the testimony at the last 
hearing, and I think I made that clear to Mr. Samuels. But I do 
want to commend him and his team, because they heard the 
message of our first hearing. At my request, Mr. Samuels agreed 
to the first-ever independent assessment of our Federal 
prisons' solitary confinement policy and practice. This 
assessment is underway, and I look forward to an update today 
from Mr. Samuels, who is with us.
    At our 2012 hearing, we found that the overuse of solitary 
can present a serious threat to public safety, increasing 
violence inside and outside prisons. The reality is that the 
vast majority of prisoners held in isolation will be released 
someday. The damaging impact of their time in solitary--or 
their release directly from solitary--can make them a danger to 
themselves and their neighbors.
    I want to note that this is the 1-year anniversary of the 
tragic death of Federal Correctional Officer Eric Williams, who 
was killed by an inmate in a high-security prison in 
Pennsylvania.
    We owe it to correctional officers who put their lives on 
the line every day to do everything we can to protect their 
safety. Make no mistake. That means that some dangerous inmates 
must be held in segregated housing. But we also learn from 
States like Maine and Mississippi, which have reduced violence 
in prisons by reducing the overuse of solitary.
    I made a personal visit to a prison, now basically closed, 
in Illinois called ``Tamms.'' Tamms was our State maximum 
security prison. I asked that they take me to the worst of the 
worst, the most dangerous inmates, and they took me to an area 
with five prisoners. They happened to be going through some 
unusual classroom experience while I was there, which I never 
quite understood, but each of the prisoners was in a separate 
fiberglass unit, protected from one another and from the 
teacher. And I walked to each of them and spoke to them, trying 
to get an understanding of who they were and why they were 
there and how they perceived their situation. It was much 
different for each one of them.
    But there is one in particular that I remember. He looked 
to be a community college professor, a clean-cut young man. And 
I asked him, ``Well, how long are you sentenced to prison?'' He 
said, ``Originally 20 years.'' And I said, ``Originally?'' 
``Yes,'' he said. ``They added another 50 years.'' And I said, 
``Why?'' He said, ``Because I told them if they put anybody in 
a cell with me I would kill him, and I did.''
    Now, that is the reality of prison life in the most extreme 
circumstance. I know that we want to make certain that those 
who work in prisons and those who also are prisoners are safer, 
and we have got to balance that against our concerns about 
humane treatment of those in solitary confinement.
    We must address the overcrowding crisis in Federal prisons 
that made prisons more dangerous and dramatically increased the 
inmate-to-correctional officer ratio. That is one important 
reason I want to pass the Smarter Sentencing Act, which will 
significantly reduce prison overcrowding by inmates who have 
committed nonviolent drug offenses. And it is one reason I am 
working to open the Thomson Correctional Center in my own 
State. I look forward to working with the Bureau of Prisons to 
ensure that Thomson helps to alleviate overcrowding and that 
all prisoners held there are treated appropriately and 
humanely.
    Let me say a word about an especially vulnerable group: 
children. According to the Justice Department, 35 percent of 
juveniles in custody report being held in solitary confinement 
for some time--35 percent. The mental health effects of even 
short periods of isolation--including depression and risk of 
suicide--are heightened among youth. That is why the American 
Academy of Child and Adolescent Psychiatry has called for a ban 
on solitary for children under 18.
    At our first hearing, we heard about many promising reform 
efforts at the State level. As is so often the case, State 
governments continue to lead the way. Let us take a few 
examples.
    Last year, my own State of Illinois closed the Tamms 
Correctional Center, which I mentioned earlier, relocating the 
remaining prisoners to other facilities.
    In the Ranking Member's home State of Texas, the State 
legislature last year passed legislation requiring an 
independent commission to conduct a comprehensive review of the 
use of solitary confinement in State prisons and jails.
    And New York has just announced sweeping reforms that will 
greatly limit the use of solitary confinement for juveniles and 
pregnant women.
    There have been other positive developments since our first 
hearing. U.S. Immigration and Customs Enforcement issued 
important guidance limiting the use of solitary confinement for 
immigration detainees. This is a positive step for some of the 
most vulnerable individuals in detention. I want to thank ICE 
for this effort.
    And the American Psychiatric Association issued a policy 
statement opposing the prolonged isolation of individuals with 
serious mental illness.
    More must be done. That is why today I am calling for all 
Federal and State facilities to end the use of solitary 
confinement for juveniles, pregnant women, and individuals with 
serious and persistent mental illness, except in the rarest of 
circumstances.
    By reforming our solitary confinement practices, the United 
States can protect human rights, improve public safety, and be 
fiscally responsible. It is the right and smart thing to do, 
and the American people deserve no less.
    [The prepared statement of Chairman Durbin appears as a 
submission for the record.]
    Senator Cruz has not arrived yet, so I am going to turn to 
our first witness, and as I mentioned earlier, Senator Cruz and 
I agreed on a bipartisan basis on all of today's witnesses. I 
want to note that I invited the Civil Rights Division of the 
Justice Department to participate in today's hearing, but, 
unfortunately, they declined. We will be following up with them 
to make them aware of our hearing and to ensure they are 
enforcing the Federal civil rights laws that protect prisoners 
held in solitary confinement.
    Also at this time, I ask unanimous consent to enter into 
the record written testimony of Kevin Landy of the U.S. 
Immigration and Customs Enforcement, and without objection, it 
will be included.
    [The prepared statement of Mr. Landy appears as a 
submission for the record.]
    Senator Durbin. Our first witness today is Charles Samuels, 
Director of the Federal Bureau of Prisons. Director Samuels, 
you are going to have 5 minutes for an opening statement, and 
your complete written statement will be included in the record. 
And if you will please stand and raise your right hand to be 
sworn, as is the custom of this Committee. Do you swear or 
affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Director Samuels. I do.
    Senator Franken. Thank you, Mr. Samuels. Let the record 
reflect that you have answered in the affirmative, and please 
proceed.

 STATEMENT OF HON. CHARLES E. SAMUELS, JR., DIRECTOR, FEDERAL 
               BUREAU OF PRISONS, WASHINGTON, DC

    Director Samuels. Good afternoon, Chairman Durbin and 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today to discuss the use of restrictive 
housing within the Bureau of Prisons.
    I cannot begin my testimony without acknowledging that 
today is the anniversary of the death of Officer Eric Williams. 
Officer Williams was stabbed to death last year by an inmate 
while working alone in a housing unit at the United States 
Penitentiary at Canaan in Waymart, Pennsylvania. We will always 
honor the memory of Officer Williams and all the courageous 
Bureau staff who have lost their lives in the line of duty. 
These losses underscore the dangers that Bureau staff face on a 
daily basis.
    Our staff face the same inherent dangers as other law 
enforcement officers throughout the country. We house the worst 
of the worst offenders, to include some State inmates who we 
house at the State's request, and we do with fewer staff than 
most other correctional systems.
    As you know, the Federal prison system is extremely 
crowded, operating at 32 percent over capacity systemwide and 
51 percent over capacity at our high-security institutions. 
Both the high crowding and low staffing levels contribute to 
the rate of violence in our prisons. Last year alone, more than 
120 staff were seriously assaulted by inmates, most often in 
our high-security institutions. In addition, nearly 200 inmates 
were seriously assaulted by other inmates.
    Despite these challenges, our staff interact with nearly 
all inmates in an open setting without weapons and physical 
barriers. It is not uncommon for one staff member to be on the 
recreation yard with hundreds of inmates who are engaged in 
various activities. Our staff encourage inmates to take 
advantage of their time in prison to improve their lives by 
participating in programs such as psychological treatment, 
education, cognitive behavioral therapy, job training, drug 
treatment, and other available programs.
    Since the hearing held by this Subcommittee in June 2012, I 
have focused attention and resources on our use of restrictive 
housing. Over the past 18 months, we have accomplished a great 
deal in terms of reviewing, assessing, and refining our 
approach to restrictive housing. We understand the various 
negative consequences that can result from housing inmates in 
restrictive housing. Such placement can interfere with re-entry 
programming and limit interactions with friends and family. 
However, please note that the large majority of inmates remain 
in the general population for their entire prison term.
    In response to concerns you have raised and because it is 
the right thing to do, we have implemented numerous innovations 
to ensure the Bureau is using restricting housing in the most 
appropriate manner. We continue to experience decreases in the 
number of inmates housed in various forms of restrictive 
housing. This reduction is attributable to a variety of 
initiatives we have put in place over the past 18 months. We 
have had several nationwide discussions with wardens and other 
senior managers about restrictive housing, mental health of 
inmates, the discipline process, and other related issues.
    With respect to specialized mental health treatment, we 
recently activated a secure mental health step-down unit that 
provides treatment for maximum custody inmates with serious 
mental illness who might otherwise require placement in 
restrictive housing. And we have plans to activate a treatment 
unit for high-security inmates suffering from severe 
personality disorders that make it difficult to function in our 
populations.
    We have activated a reintegration unit to help inmates 
adapt to the general population after an extended stay in 
restrictive housing that was often prompted by their perceived 
need for protection.
    In addition, we implemented a gang-free institution that 
allows inmates to safely leave their gang affiliations to avoid 
restrictive housing and work toward a successful re-entry.
    We are in the midst of an independent comprehensive review 
of our use of restrictive housing. The review team has 
completed almost half of the site visits. We expect a report to 
be issued by the end of 2014, and we look forward to the 
results of the evaluation to consider making additional 
enhancements to our operations.
    Chairman Durbin, I assure you that I share your commitment 
to providing Federal inmates with safe and secure housing that 
supports physical and mental health. The mission of the Bureau 
of Prisons is challenging. Through the continuous diligent 
efforts of our staff, who collectively work 24 hours each day, 
365 days per year, we protect the American public and we reduce 
crime.
    Again, I thank you, Chairman Durbin, and Mr. Cruz and the 
Subcommittee for your support of our agency, and I will be 
pleased to answer any questions you or other Members of the 
Subcommittee may have.
    [The prepared statement of Director Samuels appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Samuels. Let me, since there 
are several here, and I want to give them all a chance to ask, 
let me try to zero in on two or three specifics, if I can. The 
law recognizes that children are to be treated differently than 
adults, and that is why we do not house juvenile offenders with 
adult offenders, and juvenile facilities are different from 
adult prisons.
    When it comes to solitary confinement, we know children are 
particularly vulnerable. At our last hearing, we heard a 
devastating story of a young man, James Stewart, who committed 
suicide after a very brief period in solitary confinement.
    Many experts have called for a ban on solitary confinement 
of juveniles. The Justice Department's National Task Force on 
Children Exposed to Violence concluded, ``Nowhere is the 
damaging impact of incarceration on vulnerable children more 
obvious than when it involves solitary confinement.'' I commend 
the State of New York for its strides in this area. I do not 
believe juveniles should be placed in solitary confinement 
except under the most exceptional circumstance.
    Now, I know the Federal prison has a very limited number of 
juveniles under your jurisdiction and that they are generally 
sent to juvenile facilities. What policies and guidance does 
BOP have to ensure that juveniles under your jurisdiction are 
not placed in solitary confinement except in exceptional 
circumstances where there is no alternative to protect the 
safety of staff and other inmates?
    Director Samuels. Thank you, Mr. Chairman. As Director of 
this agency, I recognize the unique needs of juveniles. In the 
Bureau of Prisons, we have 62 juveniles who have been sentenced 
to our custody, and these individuals are placed in contract 
facilities. And part of our requirement with the agreement that 
we have with these facilities is to provide 50 hours of various 
programs and to ensure that individualized training is also 
provided for these individuals under our care.
    And out of the 62 inmates currently in our system in these 
contract facilities, we currently only have one individual who 
is in restrictive housing. And the requirements that we have is 
that any individual placed in restrictive housing who is a 
juvenile, there should be 15-minute checks done. We are 
ensuring that they are also working with the multidisciplinary 
committee to ensure that all of the issues are assessed, 
addressed, and that we are removing the individual out of 
restrictive housing at the earliest date possible.
    Chairman Durbin. Are there any limits to the period of time 
that a juvenile can be held in restrictive housing under the 
Federal system?
    Director Samuels. There is no specific limit, but if an 
individual is going to go beyond 5 days in restrictive housing, 
we require that there are discussions held to at least justify 
why there is a continued need. And as I have indicated, right 
now we only have one individual, and it should only be used 
under the rarest circumstances when there is the belief that 
there is going to be potential harm to the individual and/or to 
others. But we do not support long-term placement of any 
juvenile in restrictive housing.
    Chairman Durbin. I would like to ask you about the issue of 
mental health, which I think is directly linked to this whole 
conversation. At our last hearing, Senator Lindsey Graham asked 
about the mental health effects of solitary confinement and 
about studies about how this practice affects prisoners. You 
responded that no study had been conducted within the Bureau at 
that time. Now, that troubled me because the Federal Bureau of 
Prisons uses segregation regularly, but it did not seem to be 
studied as it should be when it comes to serious mental health.
    I am pleased that one of the five key areas of study for 
the independent BOP assessment is mental health. I would like 
to ask you basically two questions.
    Do you anticipate that the assessment will help provide BOP 
with a better understanding of the mental health effects of 
segregation? And without getting into some of the specific 
heart-breaking, gut-wrenching stories of what people do to 
themselves in solitary confinement, do you agree that people 
who exhibit this type of behavior generally need more mental 
health treatment and not just the lockdown?
    Director Samuels. Yes, sir, to your first question, I do 
believe that the assessment that is being conducted by CNA 
Analysis Solutions will provide us a road map to further look 
at our internal operation relative to mental health treatment 
that is provided to our inmate population when they are placed 
in restrictive housing. And as I have indicated, since the 
hearing that was conducted in June 2012, long before this 
assessment has been put in place with the audit, we have been 
internally looking at our operation, and we are very much in 
agreement with the appropriate number of mental health staff 
being provided to look at the specific population when 
individuals are placed in restrictive housing and are suffering 
from any type of serious psychiatric illness, and this is 
something that we will continue to do.
    And I can report, since the last hearing, and particularly 
with the concern that was being raised at the ADX, we have 
increased our staffing for psychology services to include 
ensuring that our psychiatrists within the Bureau are making 
visits to the facility. And I know that was a concern you had 
at that time when it was reported that we only had two 
psychologists responsible for treating that population.
    Chairman Durbin. Has that changed? Has the number changed?
    Director Samuels. Yes, sir, it has changed. We currently 
have five individuals who are devoted to that population. We 
are in the process of recruiting to hire a full-time 
psychiatrist there, but in the interim, we are also using 
telepsychiatry. And I have ensured that the chief psychiatrist 
for the Bureau in our headquarters is also visiting the 
facility as well, and there are a lot of things that we can do 
remotely. But we have increased the staffing, and it is 
something that we will continue to stay on top of.
    Chairman Durbin. Has there ever been a time since you have 
been in charge when a person has been released directly from 
restrictive housing to the general population, released from 
prison?
    Director Samuels. Yes, and that is also something that, 
from discussion we had in June 2012, we have discussed 
extensively throughout the agency with leadership, and I do not 
believe that it is appropriate. It is something that we will 
continue to address. No one should be released, based on the 
concern that was raised, directly from restrictive housing into 
the general population, and we will do everything possible to 
ensure that we have procedures in place. And one of the things 
that we have done, sir, is we have implemented a step-down 
unit, and definitely for those individuals who are suffering 
from a significant mental illness, that we do not have those 
individuals going out without some form of treatment and 
ensuring that there is a transition period.
    Chairman Durbin. The last question I will ask relates to 
testimony--we have some excellent witnesses coming in the later 
panel--about women, particularly pregnant women, who are placed 
in restrictive housing and solitary confinement. What have you 
found? And what are your policies when it comes to these 
prisoners?
    Director Samuels. With the female population, I can 
definitely tell you, out of 14,008 female offenders we have in 
our system, right now only 197 are in restrictive housing, 
which is like 1.4 percent. And if an individual requires 
placement, again, under the rarest circumstances, either to 
ensure that there is no threat to themselves and to others, we 
are not looking to place individuals in restrictive housing.
    And I would also add for the record that individuals who 
are placed in restrictive housing, the majority of the time it 
is for a temporary period. These are not individuals who are 
placed in for a long period of time.
    Chairman Durbin. Could you define those two terms, 
``temporary'' and ``long period,'' from your point of view?
    Director Samuels. Well, from my point of view, if an 
individual--right now out of our entire population, for 
individuals who are in restrictive housing--and I will start 
with our special housing unit. We have approximately 9,400 
individuals who are in restrictive housing. Only 15 percent of 
those individuals are in there for periods longer than 90 days, 
and that would be based on sanctions relative to discipline 
and/or administrative detention, which, when you look at the 
two categories, discipline is a sanction imposed for violating 
a rule, which we definitely need to maintain order within a 
facility if individuals do things that warrant them being 
placed in restrictive housing, which is temporary. And for 
individuals who require long-term placement within restrictive 
housing, which we can look at individuals for various reasons 
due to threat to the facility, harm to others, and ensuring 
that we are trying to do our best to keep the individuals safe, 
that sometimes will require longer periods of incarceration.
    Specifically, when you look at the control unit, where we 
have in that population a significant number of individuals, 47 
percent to be exact, out of the 413 inmates who are at the ADX, 
47 percent have killed other individuals, and that is a 
combination of them murdering individuals before they have come 
into the system and they have either murdered other inmates 
and/or staff within the system. Those individuals require 
longer periods of placement in restrictive housing.
    However, for those individuals, I am not saying and I would 
never advocate in any way that we are saying we are giving up 
on those individuals. This is where the intensive treatment and 
ensuring that those individuals are being given adequate time 
out of their cells for recreational time and other things that 
we deem appropriate, to ensure that when those individuals need 
to be pulled out, that the assessments by our psychology staff, 
psychiatrists, that we are taking all of that into 
consideration. And I am 100 percent behind ensuring that we are 
not causing any more damage to an individual who is placed in 
that setting. But I have to state that to ensure the safety of 
other inmates, to ensure the safety of our staff, these are 
individuals that only represent, sir, a small number within our 
entire population. It is less than one-fifth of a percent. When 
you look at the 215,000 inmates in our agency, the number is 
very, very small.
    Even when you look at the discipline for as large as our 
population is, you are only talking about 1,500 inmates out of 
a population of 215,000. So it is a very small number. We will 
continue to reduce the number as best we can. And I am 
committed that in our population it is better for us to manage 
inmates in general population. It is better for everyone 
because those individuals need to have the opportunity to 
participate in programming. And when we are looking at 
recidivism reduction, we want them to receive all the intensive 
programs that we can provide. And when the inmates are not 
being given those opportunities, you are looking at the issue 
and concern relative to threat to public safety. And we do not 
want to be a part of anything that causes us to not be able to 
carry out the mission. That is one of the most important things 
that we are responsible for, the Bureau of Prisons.
    Chairman Durbin. Thank you very much.
    Senator Cruz.

              OPENING STATEMENT OF HON. TED CRUZ,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think everyone here shares a number of 
common objectives: wanting to ensure that all Federal prisoners 
are held in a humane manner that respects their inherent 
dignity as human beings, and at the same time that upholds the 
objectives of sound penological policy, both allowing an 
opportunity for rehabilitation when possible and ensuring to 
the maximum extent possible the safety of other inmates and 
prisons guards, entrusted to guards sometimes some of the most 
dangerous people in the country, if not the world.
    Mr. Samuels, I appreciate your service and your being here 
today and engaging in this important discussion, and I would 
like to ask some questions to further understand your testimony 
and the scope of solitary confinement within the Federal prison 
system.
    You testified there are roughly 215,000 inmates in the 
Federal system, and that compares to about 1.2 million 
incarcerated in various State systems. And am I correct that 
the overwhelming majority of the 215,000 in the Federal system 
are in the general population at any given time?
    Director Samuels. Yes, sir. The majority of the inmates are 
in general population. Also, the majority of the inmates in our 
system spend their entire period of incarceration in general 
population. We are only talking about a very, very small 
percentage. Right now 6.5 percent of our entire population is 
in some form of restrictive housing. And when you break that 
number down, as I have mentioned, administrative detention, 
which is temporary, and also with the disciplinary segregation, 
they are given a set number of days and/or months that they 
have to serve.
    In a prison environment--and I would hope that everyone 
understands--it is all about order. And if we do not have 
order, we cannot provide programs. We are constantly locking 
down our institutions.
    Since the hearing in 2012, we have reduced our restrictive 
housing population by over 25 percent. Within the last year, we 
have gone from 13.5 percent to 6.5 percent. So the reductions 
are occurring. We are only interested in placing individuals in 
restrictive housing when there is a legitimate reason and 
justification. With our system being so large, we have over 
20,000 gang members in our system. They are watching this 
hearing. They are watching our testimony very, very closely, 
for the reason being if they see that we will lower our 
standards, we will not hold individuals accountable, it puts 
our staff at risk, it puts other inmates at risk, and this is 
why I mentioned in my oral statement that not only are we 
looking at staff being injured and harmed, our staff are 
putting their lives on the line every single second of the day 
to protect the American public. But we are also having inmates 
within the population who are being harmed by these individuals 
who have no respect--I mean no respect--for others when it 
comes to their safety.
    We cannot afford at any time to say that for those 
individuals who assault staff, assault inmates, there is no 
accountability. This is no different than in society. If 
individuals violate the laws and they hurt citizens, they are 
removed from society and either placed in a jail and/or prison.
    If these individuals attack police officers, they are 
removed. They are not given second chances where we say do not 
do it again. My staff, as I have indicated, who are putting 
their lives on the line every single day, they have to know 
that there is accountability for the actions of others.
    Now, for treatment and working with those individuals, we 
are going to continue to do that. That is our mission. Ninety-
five percent of the individuals within the Bureau of Prisons at 
some point will be released. We have a duty, we have an 
obligation to do everything, sir, to ensure that for that 
captured population we are working to change their behavior. 
Many of these individuals come in with significant issues. We 
have to address those issues, and we will continue to do it.
    I also believe that it is very, very important for the 
Subcommittee to know that when you look at the care levels for 
mental health, we have approximately 94 percent of the inmates 
within our system who have no mental illness--94 percent. That 
is 187,264 inmates. We have the care levels one, two, three, 
and four. When you take it to level two, you are talking about 
10,809 individuals who have been diagnosed with some type of 
mental illness that would require on average our mental health 
staff engaging with these individuals once a month. When you go 
even further for care level three, we have 555 inmates who 
would require intensive interaction and treatment. And to the 
concerns that were raised earlier, we need to make sure that 
these individuals are receiving access, that there is quality 
time with the mental health providers, and for the most serious 
cases we have in the Bureau, out of our entire population, 286 
individuals are diagnosed with an acute mental illness. Same 
thing for that population.
    But I think everyone needs to know that for our entire 
population the majority of these inmates do not suffer from a 
significant mental illness, and they are programming, they are 
in our institutions doing the right thing and not causing us 
problems. But it is that very, very small number who will do 
anything, I mean anything, to hurt others.
    I have been in the Bureau of Prisons now going on 26 years. 
I have talked to inmates. I have had inmates tell me, ``If you 
release me to the general population or if you take me out, I 
will kill someone.'' I have a duty and an obligation to protect 
the staff, to protect the inmates. And when someone is willing 
to tell you, ``If you do it, this is what I am going to do,'' I 
mean, there are huge issues with that.
    Senator Cruz. Mr. Samuels, I appreciate your decades of 
service, and as someone who spent a significant portion of my 
adult life in law enforcement, I certainly am grateful, as I am 
sure is every Member of this Committee, for the service of the 
many employees of the Bureau of Prisons, many of whom risk 
their lives to protect innocent citizens every day. And it is 
not an easy job that you are doing, and it is a very important 
job.
    I would be interested, in the judgment of the Bureau of 
Prisons, what is the affirmative value of solitary confinement? 
In what circumstances should it be employed? And what are the 
risks, what are the downsides to using it as a tool in our 
prisons?
    Director Samuels. Thank you, Senator Cruz. The value of 
restrictive housing in the Bureau should only be used when 
absolutely necessary for those individuals who pose a threat to 
others and the safety and security of the facility, and that is 
to ensure we are protecting staff, inmates, and the general 
public. It should never, ever be used as a means of being 
viewed as we are retaliating against individuals. I mean, we 
are trying to correct the behavior.
    I strongly support ensuring that we do not use it just for 
the sake of we can and we are not being held accountable, no 
different than the State systems, who are also looking at this 
issue. And the one thing that I do appreciate with this issue 
being raised is this is now a national issue. It is a national 
discussion.
    The Association of State Correctional Administrators, which 
I am a member of, immediately after the hearing we all met. We 
talked about the best practices and what we should be doing, 
because when you look at State systems, the Federal systems, 
and even at the local level, you have many, many, many 
definitions of what ``restrictive housing'' means. And so we 
are working together, and at some point the Association of 
State Correctional Administrators will be releasing a survey 
where they are reaching out nationally to all the 51 
jurisdictions to ask everyone, ``Provide us your best 
practices,'' and this will be posted on the website. And I know 
just from the discussions that we have had--when I say ``we,'' 
my colleagues, the secretaries, commissioners, and the 
directors for State corrections. We are moving in the right 
direction to define what we believe for our profession is 
appropriate. We are also looking at the issue regarding 
cultural issues, because you have to understand, where we are 
moving and where we are headed, we are trying to change a 
culture, and not just within the Bureau of Prisons, of 
practices that have been in place for long periods of time.
    I have gone out at your request, Mr. Chairman, to visit the 
States where practices have been in place, to look at what they 
are attempting to do and what they are doing. And I am very, 
very mindful of the concern. And I am the Director who firmly 
believes in treating inmates respectfully, ensuring that they 
are living in a humane environment, because our actions will 
dictate to these individuals what our country is all about. And 
we are not there to judge these individuals. We are there to 
ensure that they serve their time, they pay their dues to 
society, and hopefully put them in a better situation so when 
they are released, they are productive citizens and the goal of 
them never returning.
    So I do not see a downside with individuals who are not 
abiding by the rules, because if they are not abiding by the 
rules within the prison, I mean, at some point when they are 
released, there is no accountability. So we have to hold them 
accountable, because if they go out and they continue with that 
behavior, guess what? They are coming back. And we will do 
everything possible to try to get them to turn and move away 
from that negative behavior, but it requires intensive 
treatment.
    I am also looking at ensuring that we are developing a 
cognitive behavioral therapy program for those individuals who 
are within our restrictive housing unit so they are not just 
sitting there. We want there to be active engagement of showing 
them, hey, we can offer you this, but they have to be willing 
to accept the olive branch. We do not want to just leave 
individuals sitting there.
    Senator Cruz. Very good. Thank you, Mr. Samuels.
    Chairman Durbin. Thank you, Senator Cruz.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    At the outset, I would like to welcome Damon Thibodeaux, a 
Minnesotan who will testify later today. Mr. Thibodeaux, you 
have turned your tragedy into a story of hope and courage, and 
I want to thank you for sharing it today.
    I would also like to thank the Chairman for holding this 
hearing and all the work you have done on this issue over the 
years. This practice of solitary confinement or restrictive 
housing is a troubling one for a number of reasons--for moral 
reasons, economic reasons, as the Chairman said in his opening 
statement, for public safety reasons.
    One of the aspects of this that concerns me is the mental 
health aspect of the problem, as we have been discussing. Over 
the years we have seen the corrections and law enforcement 
systems take on more and more responsibility for responding to 
mental illnesses in our communities. Last winter, I hosted a 
series of roundtable discussions with law enforcement personnel 
and mental health advocates in my State of Minnesota.
    The sheriff who runs the jails in Hennepin County--that is 
our largest county in Minnesota--told me that about a third of 
the inmates in his jails really belong in mental health 
treatment programs and not behind bars. And you have been 
talking about treating people behind bars. Maybe that is not 
where they should be treated, if it is possible. There are 
people with mental illness who have committed some crimes that 
they need to be behind bars, but there are a lot who probably 
should be elsewhere.
    I have a bill called the Justice and Mental Health 
Collaboration Act that will improve access to mental health 
treatment for those who need it, and I think relieving--the 
purpose is to relieve some of the burden on law enforcement 
personnel and on correctional personnel.
    The bill also funds flexibility in creating alternatives to 
solitary confinement in our jails and prisons. I would like to 
thank Senators Durbin, Leahy, Hatch, Grassley, and Graham and 
others for cosponsoring my bill. I would like to invite others 
to join that effort.
    I want to ask you a couple things, one about crisis 
intervention training. Director Samuels, last March, I visited 
the Federal Medical Center in Rochester, Minnesota. They are 
kind of a psychiatric unit and also behind bars, and they said 
they have benefited tremendously from CIT, crisis intervention 
training, and they said they have avoided serious injuries and 
I think incidents that may lead to inmates going into solitary 
confinement when they act out and become violent. We see these 
on these weekend shows that show people behind bars, and the 
guards have to strap on all kinds of protective wear. They said 
they can avoid that by understanding when some--and talking 
someone down instead of, you know, in a way--not provoking a 
terrible conflict but also not stopping it.
    Can you talk a bit about the role that CIT or crisis 
intervention training plays in the Federal prison system?
    Director Samuels. Thank you, Senator Franken, and I am glad 
you raised this question. The National Institute of 
Corrections, which is also part of the Bureau of Prisons, 
actually provides the training for crisis intervention, and it 
is based on a request of State systems. We have ensured that 
our staff, specifically the Bureau psychologists, have 
participated in the training. As a result of what they have 
seen, we have implemented our own protocols relative to the 
training to use various elements. And we have field-tested this 
training in one of our institutions, and as a result of it, we 
are obtaining the feedback, and it is something that we are 
considering to look at actually adopting within the Bureau 
based on the Federal system and our unique needs.
    So to your point, it does serve value, and we are looking 
to explore doing more with it within the Federal system.
    Senator Franken. Okay. I kind of want to--you know, we 
are--you provided a lot of statistics about solitary or about 
restrictive housing. I just want to get more into the human 
aspect of this. I kind of wanted to on the crisis intervention 
training. But how big is a cell? How big is the average cell in 
solitary?
    Director Samuels. The average size?
    Senator Franken. Cell, yes, the size of the cell. How big 
is it? I am trying to get this--it is the human thing we are 
talking about. We have got a lot of statistics. How big is the 
cell?
    Director Samuels. The average size of a cell is--I guess I 
am trying to--you are looking for the space of what the----
    Senator Franken. Yes, the dimensions in feet and inches. 
The size of the cell that a person is kept in. I want to get 
some idea of--I do not--am I asking this wrong?
    [Laughter.]
    Senator Franken. Is what you are saying that there is no 
such thing as an average cell for solitary? But, I mean, 
typically in the Bureau of Prisons, if someone is in solitary 
confinement, how big is the cell typically?
    Director Samuels. The average size should be equivalent to 
6-by-4, and----
    Senator Franken. Okay. That is an answer, 6-by-4. Does the 
person in the cell during months and months, say, of this, do 
they have an ability to talk to family?
    Director Samuels. Yes.
    Senator Franken. They always do?
    Director Samuels. It is not on a frequent basis, but we 
provide individuals who are in restrictive housing on average--
I mean, they are receiving one phone call per month, and this 
is something that we are looking at when I talk about reform 
for our disciplinary process for those placed in restrictive 
housing we need to change, and that is something that we are 
willing to continue to look at to ensure that we are providing 
more access for frequency for those phone calls, as well as 
visits.
    Senator Franken. Well, I have run out of time. We will have 
some witnesses who may be a little bit more descriptive. Thank 
you.
    Director Samuels. Actually, it is 10-by-7 for the cell 
size.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Franken.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Director Samuels, thank you for your service and all that 
you are doing to address what is really a troubling situation. 
We do have someone on the second panel who will testify or talk 
about women being confined in solitary for reporting abuse, 
including sexual abuse, by Bureau of Prisons staff. I have a 
series of questions regarding this situation.
    My first question is: Are you aware of this happening in 
the system, rare as it may be, we hope?
    Director Samuels. Yes.
    Senator Hirono. Okay. Second question. Then what do you 
have in place to prevent this kind of abuse from happening?
    Director Samuels. Well, what we have in place is our staff 
being active in ensuring that rounds are being made. We have 
also addressed concerns with ensuring that the inmates are able 
to reach out and to let us know and being comfortable with 
that. But we have a zero tolerance.
    Senator Hirono. So you have zero tolerance, but does that 
mean that the inmates that this is happening to feel free to 
come forward and report? Who would they report this to? 
Certainly it should not be the person that has power over them 
and who is actually the abuser, alleged abuser.
    Director Samuels. Yes, they are able to report any 
allegations to staff, and we also have a hotline number that 
the inmates are given, and they can also report it in that 
manner.
    Senator Hirono. And in terms of getting this information 
out to your inmates, do you do this in a written form? Or how 
do your inmates know, regardless of whether they are in 
solitary or in the general population, that if they are faced 
with this kind of abuse, that they know what to do, where to 
go?
    Director Samuels. It is provided to the inmate population 
verbally during discussions as well as in writing.
    Senator Hirono. Mr. Chairman, I would--I think it would be 
good if he could provide us with a sample or, in fact, the 
directive regarding what they tell the inmates with regard to 
this kind of situation so that we can----
    Director Samuels. We can provide that for the record.
    [The information referred to appears as a submission for 
the record.]
    Senator Hirono. So in terms of the enforcement of this 
policy or this directive, how do you go about making sure that 
this is being followed by your staff?
    Director Samuels. Well, a number of things that we do. At 
the local level, obviously it is something that the leadership 
to include management staff are focused on ensuring that we are 
doing quality control reviews. We utilize our national office. 
When we go out and we conduct audits of our facilities, we look 
at the operating practices and procedures to ensure that we are 
following the expectations of our policies.
    Senator Hirono. How long have these policies been in place 
at the BOP?
    Director Samuels. These policies have been in place for 
decades. We have always had a zero tolerance for any type of 
activity and given our staff the guidance to carry it out.
    Senator Hirono. And so when this does happen, what happens 
to the alleged abuser or the violator?
    Director Samuels. For the individuals who do this, we 
quickly take all allegations seriously, and those individuals 
are removed from general population as well as the individuals 
who have been victimized to ensure that we are looking at the 
safety and security issues on both sides. And we ensure that 
the investigation relative to the allegation, that we are doing 
it in a timely manner and holding those individuals 
accountable, because as I mentioned, Senator, we do not support 
nor do we want anyone victimizing others and not being held 
accountable for their actions.
    Senator Hirono. And is this kind of behavior considered a 
crime for which the perpetrator can be prosecuted?
    Director Samuels. Yes, and if the investigation leads to 
the individual being charged, which we refer all of these 
issues to the FBI, and then they move in and they do their 
investigation, and ultimately it is determined whether or not a 
crime has been committed. And we believe in ensuring that those 
individuals are held accountable to the fullest extent of the 
law.
    Senator Hirono. Do you have the numbers on how many 
individuals have been prosecuted or disciplined in some way? 
Well, let us talk about disciplined and then prosecution.
    Director Samuels. I do not have that information with me 
currently, but I can provide that for the record.
    Senator Hirono. You have that data.
    Director Samuels. Yes.
    Senator Hirono. Thank you.
    [The information referred to appears as a submission for 
the record.]
    Senator Hirono. Have there been any studies on the effects 
of solitary confinement on recidivism and/or re-entry?
    Director Samuels. There have been no studies, and as a 
result of the hearing that was conducted in 2012 when that 
question was presented to me and we had not participated in any 
type of study, we agreed to undergo the analysis that is taking 
place right now with CNA. And hopefully from that review, we 
will have some insight, but, Senator, I would have to add, when 
you are looking at recidivism, that will require a long period 
of time to assess when you are looking at the number of 
individuals who have since been released and the impact on 
recidivism, and also a resource issue for ensuring that if we 
undertake something like that, that there will be a substantial 
cost. But currently we do not have anything like that in place 
other than what are being looked at as of now.
    Senator Hirono. And I recognize that it is not that easy to 
determine cause and effect in these situations. Are you aware 
of any studies that show differences in the effects of solitary 
confinement on men and women?
    Director Samuels. No.
    Senator Hirono. Is this aspect going to be addressed in 
some way in the study that you are referring to?
    Director Samuels. The comprehensive study that we are 
undergoing now, that is not part of the assessment. But I agree 
with you it is something that we should continue to look at, 
but also, as I have stated, when you look at the gender issues 
for restrictive housing, the number for us is very, very, very 
low for the female population, and they are not as likely as 
the male population to be engaged in behavior that requires 
them to be placed in restrictive housing for long periods of 
time.
    Senator Hirono. If I may, you have 198 women in restrictive 
housing. How many of them are in the ADX facility?
    Director Samuels. We do not house any females at the ADX, 
nor do we require for the record to have that type of housing 
for female inmates, only for males.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Director Samuels, thank you very much for 
your testimony. We appreciate it. We are going to follow up 
with some of the questions that were asked here earlier. Thank 
you.
    Director Samuels. Thank you.
    Chairman Durbin. We now invite the second panel to come 
before us, and I ask the witnesses to take their place at the 
witness table. I am going to read a little background on them 
before they are called on.
    Rick Raemisch is here. He is the executive director of the 
Colorado Department of Corrections, three decades of law 
enforcement experience, and before this position he was the 
Secretary of the Wisconsin Department of Corrections, and he 
also served as Deputy Secretary. Previously Mr. Raemisch was 
the sheriff of Dane County, Wisconsin, served as Assistant U.S. 
Attorney and Assistant District Attorney in Dane County, as 
well as an undercover narcotics executive and deputy sheriff, 
and I thank him for joining us today. Mr. Raemisch, thanks for 
being here.
    Piper Kerman is with us, and she is the author of the New 
York Times best-selling memoir ``Orange Is the New Black: My 
Year in a Women's Prison,'' an account of her 13-month 
incarceration in Federal prison. ``Orange Is the New Black'' 
was recently adapted into a Netflix original series. Ms. Kerman 
works as a communications consultant for nonprofit 
organizations and serves on the board of the Women's Prison 
Association. She has spoken and written about prison issues in 
many media outlets. She received the 2014 Justice Trail Blazer 
Award from the John Jay College Center on Media, Crime, and 
Justice. Again, thank you for being here.
    Craig DeRoche, president of the Justice Fellowship, the 
public policy affiliate of the Prison Fellowship that advocates 
for criminal justice reform based on principles of restorative 
justice found in the Bible. He previously served as the 
organization's vice president and director of external affairs. 
Earlier in his career, he served in the Michigan House of 
Representatives where he was elected speaker. He lives in Novi, 
Michigan, with his wife, Stacey, and three young daughters. I 
want to thank you and the Justice Fellowship for your 
appearance here today.
    Marc Levin is the director of the Center for Effective 
Justice at the Texas Public Policy Foundation, which has played 
an important role in adult and juvenile justice reforms in that 
State. He is a leader of the Texas Public Policy Foundation's 
Right on Crime Initiative, which has led conservative efforts 
to reform the criminal justice system. Previously Mr. Levin 
served as law clerk to Judge Will Garwood of the U.S. Court of 
Appeals of the Fifth Circuit and staff attorney at the Texas 
Supreme Court, thanks to the Texas Public Policy Foundation's 
work, led to reforms of the drug sentencing law, and 
particularly I want to thank you for your support of the 
Smarter Sentencing Act, which all the Members here today have 
cosponsored.
    Damon Thibodeaux is a witness before us. In late September, 
Damon became the Nation's 141st death row inmate to be 
exonerated on actual innocence grounds since the Supreme Court 
reinstated capital punishment in 1976. He was released from the 
Louisiana State Penitentiary at Angola after 15 years in 
solitary confinement. Mr. Thibodeaux's release was supported by 
the Jefferson Parish district authority's office, which was 
responsible for his original prosecutor. Following his release, 
Mr. Thibodeaux relocated to Minneapolis where he worked for 
Pitney Bowes, obtained his GED and a commercial driver's 
license. In January 2014, he began his commercial truck driving 
career with U.S. Xpress transportation company. I am sorry for 
what you have been through, sir. I commend you for what you 
have done to rebuild your life. It is an amazing story. I want 
to thank you for having the courage to appear here today, and 
we will be hearing your testimony in just a few moments.
    Mr. Raemisch, you have 5 minutes. Your entire written 
statement--and I have read them all, and I commend them to 
those who are here. These are some extraordinary statements. 
But, Mr. Raemisch, 5 minutes to summarize, if you would, and 
then we will ask a few questions after the whole panel.

        STATEMENT OF RICK RAEMISCH, EXECUTIVE DIRECTOR,
 COLORADO DEPARTMENT OF CORRECTIONS, COLORADO SPRINGS, COLORADO

    Mr. Raemisch. Thank you, Mr. Chair, Ranking Member Cruz, 
and distinguished Members of this Committee. It is an absolute 
honor for me to be here. I am Rick Raemisch. I am the executive 
director of the Colorado Department of Corrections. I was 
appointed by Governor John Hickenlooper to fill the vacancy 
left by the former executive director, Tom Clements, who was 
assassinated in March of last year.
    In a horrific irony, Mr. Clements was assassinated by an 
individual who had spent several years in administrative 
segregation and was released directly from segregation into the 
community, which is an absolute recipe for disaster.
    The other irony involved here is that Mr. Clements had 
dedicated his short time at the Colorado Department of 
Corrections to reducing the large number of individuals in the 
system that were in segregation. In fact, Colorado, if not the 
lead percentage, was one of the leaders, unfortunately, of 
incarcerating people in administrative segregation.
    I was picked by Governor Hickenlooper because I had the 
same vision in Wisconsin and was able to do some things there. 
This gives me an opportunity to continue that vision. And 
having spent some time in administrative segregation myself 
recently, it just reinforced my feelings about it, and these 
are my feelings, and I will summarize them very quickly. In my 
mind, of over 30 years in the criminal justice system, that 
administrative segregation is overused, misused, and abused. 
And what I feel is that we are failing in this particular area 
in our mission, and our mission really is not about running 
more efficient institutions, although that is certainly 
something that we want to do, that is something we need to do, 
but that is not our primary mission. Ninety-seven percent of 
all of our inmates return back to the community, and out of 
those 97 percent, some of them have been in administrative 
segregation, and our duty and our primary mission is very 
simple: Make a safer community. And the way we make a safer 
community is by having no new victims. And the way we have no 
new victims is by ensuring that the people that we send back 
into the community are prepared and dedicated to being law-
abiding citizens instead of returning in a worse condition than 
when they came in, and that is where I feel we are failing.
    Some of the things we have done in Colorado, I was charged 
by the Governor with three tasks: eliminate or reduce the 
number of major mentally ill in our administrative segregation 
area, and what we were able to do last spring, as an example, 
we had 50 that were in administrative segregation; this January 
there were 4.
    The second challenge by Governor Hickenlooper was to 
eliminate or drastically reduce those released directly from 
segregation into the street. And I might ask or ask anybody in 
this audience to stand up if they feel like they would like to 
live next to someone that has been released directly from 
segregation to the street, and I am pretty sure people are 
going to stay in their chairs. What we were able to do, in 2012 
we released 140 directly into the street; in 2014 we released 2 
so far.
    And the other area I was challenged by the Governor was 
take a look at everyone else in administrative segregation and 
see if you can determine that the numbers of those that should 
be released, and we have done that. That was started by 
Executive Director Clements and is being continued by me. In 
January 2011, we had 1,451 in admin seg, as it is called; in 
January 2014, we had 597.
    In a sense, I do not feel I am replacing Mr. Clements. I 
feel I am fulfilling his vision. That is what we are doing in 
Colorado. I believe that nobody should be released directly to 
the community, and some of the things that we are doing are 
some that all can be doing. I do not disagree with anything Mr. 
Samuels said. I respect him. I have known him for quite some 
time. Working with the Association of State Correctional 
Administrators Association, we have done a lot of work in best 
practices. But let me throw some things out there as I quickly 
end, as I am running out of time.
    For some reason, we seem to think that for admin seg 
someone is in a cell 23 hours a day. Who defines that? There is 
probably some obscure court case that mandates that is what 
happens. Why isn't it 22 hours a day? How about 20 hours a day? 
How about 18 hours a day or they start at 23 and work their way 
down to 10? That is one thing we are going to be doing.
    It has been automatic for the most part that someone on 
death row is going to stay in administrative segregation until 
they are put to death. And as we know, a person spends many 
years, and some are found innocent and released. So we are 
going to be changing our policy on that and giving them the 
opportunity to get outside of their cells.
    Where we are going to end up in Colorado is that only the 
extremely violent--and that is a small handful, about all that 
we are talking about--are going to be those that remain in 
administrative segregation. But even then, that does not mean 
we give up on them. It means we continue to find a solution for 
these problems because, as I sat in that cell for over 20 
hours, my response was, ``This is not a way to treat an 
American.'' It is not a way that the State should be treating 
someone. It is not a way this Nation should be treating 
someone. And, internationally, it is not a way to be treating 
someone. This is receiving the right amount of attention now at 
the right time, and I think it is time we move this forward.
    Thank you.
    [The prepared statement of Mr. Raemisch appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Raemisch. And I might say to 
those gathered here, a roll call vote just started, and some of 
my colleagues will leave to vote. We will try to keep the 
hearing going. There may be an interruption for a short recess 
because of the roll call, but we will be back quickly to 
resume.
    Ms. Kerman.

               STATEMENT OF PIPER KERMAN, AUTHOR,
                       BROOKLYN, NEW YORK

    Ms. Kerman. Chairman Durbin, Ranking Member Cruz, and 
distinguished Members of this Committee, thank you for having 
me here to address this important issue.
    I spent 13 months as a prisoner in the Federal system. If 
you are familiar with my book, ``Orange Is the New Black,'' you 
know that I was never held in an isolation unit. The longest 
amount of time I was placed alone in a holding cell was 4 
hours, and I was ready to climb the walls of that small room by 
the end of that.
    I am here today to talk specifically about the impact of 
solitary confinement on women in American prisons, jails, and 
detention centers.
    Women are the fastest growing segment of the criminal 
justice system, and their families and communities are 
increasingly affected by what happens behind bars. At least 63 
percent of women in prison are there for a nonviolent offense. 
However, some of the factors that contribute to these women's 
incarceration can also end up landing them in solitary 
confinement.
    During my first hours of incarceration, warnings about 
solitary, or ``the SHU,'' came from both prisoners and staff 
very quickly, and very minor infractions could send you to the 
SHU. They can then keep you there as long as they want under 
whatever conditions they choose. Unlike the normal hive-like 
communities of prison, 24-hour lockdown leaves you in a 6-by-8 
cell for weeks or months or even years, and this is 
unproductive for individuals, for prison institutions, and the 
outside communities to which 97 percent of all prisoners 
return.
    Several factors make women's experience in incarceration 
and solitary different from men's. Women in prison are much 
more likely than men to suffer from mental illness, which makes 
being put into solitary confinement much more likely and much 
more damaging.
    Jeanne DiMola, who, like the majority of women prisoners, 
had a history of mental illness--and 75 percent of women in 
prison do--she spent the first year of her 6-year sentence in 
solitary confinement. You have her full written statement. I 
will share some of her words with you.
    ``I spent three-quarters of my time on a bunk with a 
blanket over my head in the fetal position, rocking back and 
forth for comfort. I tried meditating, to no avail. I can 
separate body from mind with my disassociative disorder. I 
cried a lot, not for me but for my kids. I laughed 
inappropriately. I got angry at myself, angry at those who 
abused me and led me to this life of addiction. I felt ashamed 
because I let others abuse my body because I felt I deserved 
it. I felt sorry I was born. I felt sorry for all the hurt that 
I caused. But most of all, I felt sorry that there was not a 
rope to kill myself, because every day was worse than the 
last.''
    Solitary is also misused as a threat to intimidate and 
silence women who are being sexually abused by staff, which is 
a widespread problem in prisons, jails, and detention centers 
that house women. Early in my own sentence, a woman who had 
done a lot of time told me about a friend of hers who had been 
sexually abused by a guard at Danbury. She told me, ``They had 
her in the SHU for months during the SIS investigation. They 
shot her full of psych drugs. She blew up like a balloon. When 
they finally let her out, she was a zombie. They do not play 
here.''
    There are egregious examples of solitary confinement being 
used by prison officials to hide horrific, systemic sexual 
abuse under their watch. The terrible threat of isolation makes 
women afraid to report abuse and serves as a powerful 
disincentive to ask for help or justice.
    And, finally, solitary has a devastating effect on families 
and children of women prisoners. For health and safety, 
pregnant women should never be placed in solitary, and yet this 
is allowed in prisons throughout the U.S. Most women in prison 
are mothers. A child's need to see and hold his or her mother 
is one of the most basic human needs, yet visitation for 
prisoners in solitary is extremely limited, and often all 
visitation privileges are revoked. Isolation should only be 
used when a prisoner is a threat to her own safety or that of 
others, not when pregnant or suffering mental illness or for 
reporting abuse.
    I urge that the Federal Bureau of Prisons, in its 
assessment of solitary confinement practices, take action to 
limit the use of solitary on women. They should visit as many 
women's institutions as possible, FCIs like Tallahassee and 
Dublin, and they should include confidential discussions with 
the women who are incarcerated in those facilities.
    Last week, my home State of New York announced significant 
solitary reforms, including prohibition of placing pregnant 
women in solitary, and the Bureau of Prisons and other States 
should also embrace those kinds of comprehensive reforms.
    Thank you for the opportunity to testify and to help the 
Subcommittee address this very significant issue. I am hopeful 
it will mark the next step in urgently needed and long-term 
oversight and reform.
    [The prepared statement of Ms. Kerman appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. Kerman.
    As I said, I have reviewed the testimony of all the members 
of this panel. It is extraordinary, and I do not want to miss 
it. So we are going to take a 10-minute recess and let us race 
over to the floor and back, so if you could just hang around 
for a few more minutes, we will be back.
    This Committee will stand in recess for 10 minutes.
    [Whereupon, at 3:42 p.m., the Subcommittee was recessed.]
    [Whereupon, at 3:59 p.m., the Subcommittee reconvened.]
    Chairman Durbin. This hearing of the Subcommittee will 
resume. It would have been 10 minutes except the Senate train 
broke down. We had to walk over to the Capitol and get back.
    So, Mr. DeRoche, please proceed.

          STATEMENT OF HON. CRAIG DeROCHE, PRESIDENT,
               JUSTICE FELLOWSHIP, NOVI, MICHIGAN

    Mr. DeRoche. Good afternoon, Mr. Chairman, Ranking Member 
Cruz, Members of the Committee. Thank you for revisiting this 
pressing issue.
    Changing the culture in prisons will change the culture in 
our cities and our States. The disproportionate and arbitrary 
use of solitary confinement is not only immoral, it is a missed 
opportunity to break the cycle of crime. This approach does not 
increase public safety and is contrary to Justice Fellowship's 
goals for the criminal justice system--accountability and 
restoration.
    Teaching people to become good citizens, rather than just 
good prisoners, is the charge entrusted to the correctional 
officers by the taxpayers. Skilled wardens understand that 
ensuring prisoners become responsible and productive members of 
society at large is paramount to the safety of our communities, 
whether inside or outside of the prison walls.
    Part of creating safe communities inside prisons includes 
removing prisoners, individuals, who violate societal norms by 
placing themselves or others at risk. But skilled wardens also 
understand that the removal process needs to be temporary and 
what is being asked of the prisoner should be available to them 
and also achievable.
    Many in this room know that Justice Fellowship's founder, 
Chuck Colson, saw his power and pride crumble when he left 
being President Nixon's counsel to becoming a Federal prisoner. 
But upon his release from prison, his work actually started 
touring a solitary confinement unit in Walla Walla prison in 
1979, and out of that meeting, Senators, is where Justice 
Fellowship was founded.
    And I am also grateful to you, Mr. Chairman and Ranking 
Member Cruz, for your support, as has been mentioned, of 
cosponsoring the Smarter Sentencing Act. And I believe that Mr. 
Colson, if he were alive today, would applaud your work in that 
area.
    Solitary confinement in theory is for ``the worst of the 
worst'' of the prisoners. However, data says otherwise. A case 
in point is Illinois where a study was conducted and found that 
85 percent of the prisoners were sent to disciplinary 
segregation for minor rule violations. Prisoners in these 
circumstances too often do not have their cases individually 
reviewed and looked at from oversight. There was an analogy 
given earlier about police officers, when they are struck, or 
other things, but it seems that the justice system does a much 
greater job on the outside of the walls of having 
accountability and individual review than segregation has had 
historically.
    When it comes to the discussion about mental illness, 
regretfully, our family, friends, and neighbors suffering from 
mental illness are too often punished rather than treated. And 
I would like to share the story of a man named Kevin, a young 
man that I had the privilege of knowing back in Michigan, who 
was diagnosed with bipolar disorder when he was 11 years old, 
and at 14 was pressured by a peer group to holding up a 
pizzeria with a toy gun. He wound up in an adult prison and 
spent nearly a year in segregation. He described his experience 
as an ongoing panic attack and felt as though he was stuck in 
an elevator that he needed to escape from, and he eventually 
tried to commit suicide as his escape. But instead of helping 
Kevin, the prison guards at the time simply increased his 
punishment because that was all that they were trained and 
knowledgeable to do.
    Too often our jails have become our country's mental 
institutions, and I believe that supporting bills such as the 
Community Mental Health--Collaborative Mental Health Act that 
Senator Franken spoke of earlier will help provide resources to 
our States, law enforcement community, as well as to our State 
corrections officials when they are encountering and dealing 
with people that are suffering from mental health issues and 
mental illness.
    I would like to share some promising alternatives and 
strategies from Justice Fellowship's perspective of those that 
have reduced the use of segregation, that is: first, to use 
missioned housing to target the need of prisoners with mental 
illness, developmental delays, and those at risk of sexual 
victimization; second, to use alternative responses to the 
disruptions outside of segregation; third, to increase the 
training for the prison staff on methods that promote positive 
social behavior within the Bureau of Prisons.
    Jurisdictions employing these strategies have not only 
reduced their use of segregation but have also tracked 
concurrent reductions in the use of force on prisoners and the 
number of prison grievances.
    I want to acknowledge that the ACA and other organizations 
have taken a very progressive stance on inviting in external 
and independent reviews, as has the Bureau of Prisons. And to 
this Senate panel, whether it is the Internal Revenue Service 
or the Department of Justice, I believe that holding Government 
accountable comes with no expiration date. And when the issues 
of human liberty and public safety are at stake, we must never 
give up the watch.
    And I would hope, Senator, that this is not the end of the 
discussion today and that these can be continued, including the 
work with the newly authorized Charles Colson Task Force on 
Prison Reform.
    [The prepared statement of Mr. DeRoche appears as a 
submission for the record.]
    Chairman Durbin. Well, Mr. DeRoche, thank you very much. It 
is not the end. This is round two. And I do not know how many 
more there will be, but I wanted to bring this issue up again 
and see if progress had been made, and I thank you for your 
participation.
    Mr. Levin, you are making me very nervous. We keep inviting 
you to these hearings, and as a Texas conservative, I find 
myself agreeing with you more and more.
    [Laughter.]
    Chairman Durbin. So I am hoping that you will at least 
highlight a few things that you know we disagree on. But thank 
you very much for coming, and the floor is yours.
    Turn the microphone on.

         STATEMENT OF MARC LEVIN, DIRECTOR, CENTER FOR
  EFFECTIVE JUSTICE, TEXAS PUBLIC POLICY FOUNDATION, AUSTIN, 
                             TEXAS

    Mr. Levin. Thank you, Mr. Chairman, for your leadership on 
this, and I want to thank as well the Ranking Member, who I 
have known and admired for many years, Senator Cruz.
    We are a conservative think tank, but I will tell you----
    Senator Cruz. And I will note on that you did find 
something you disagree with the Chairman on.
    [Laughter.]
    Mr. Levin. Well, we are a conservative think tank, but I 
will tell you that if we believe in making Government less 
intrusive and personal responsibility and accountability, we 
have to shine the light in the darkest of places and the most 
restrictive areas of Government control, which is solitary 
confinement. So I am pleased to be here today.
    One of the issues that we feel strongly about is ending the 
practice of releasing inmates directly from solitary 
confinement. This is a major problem in Texas with over 1,300 
such releases directly from solitary confinement in 2011 from 
Texas State prisons.
    In Washington State, a study was done on their supermax 
unit that found inmates released directly from solitary 
confinement were 35 percent more likely to commit a new 
offense, and even more likely than that to commit a new violent 
offense as compared to comparable inmates with similar risk and 
offense profiles who were not released directly from solitary 
confinement.
    I also want to point out the successes that we have seen in 
States around the country. Mississippi, as noted earlier, has 
gone down from 1,300 inmates in 2007 in solitary confinement to 
today only 300. And that has saved them over $6 million because 
it is less than half the cost. But I think most importantly, 
violence in Mississippi prisons has dropped 70 percent since 
they made those reductions.
    And in Maine, for example, they have gone from 139 in 
solitary confinement at their Warren unit to between 35 and 45 
today, just in the last couple of years. And what I want to 
note is that their corrections commissioner, Joseph Ponte, has 
noted the downsizing of solitary confinement has led to 
substantial reductions in violence, reductions in use of force, 
reductions in use restraint chairs, reductions in inmates 
cutting themselves up, which used to happen every week. He said 
it has been almost totally eliminated as a result of these 
changes.
    Part of what they have done there is reducing the duration 
of solitary confinement; for example, those that used to go 
there for drugs, they may still go, but if they test clean for 
drugs, they can graduate out of solitary confinement. And if 
someone is being kept there for more than 72 hours, that 
decision is reviewed by the commissioner.
    I also want to note that one of the keys in Texas to 
reducing our solitary confinement has been the Gang 
Renunciation and Disassociation Program. Inmates can earn their 
way out of solitary confinement by exemplary behavior and 
renouncing their gang membership.
    I also want to point out that using sanctions and 
incentives behind bars is a way to provide for incentives that 
lead inmates to behave better, which, therefore, reduces the 
need for solitary confinement. One of the models is the 
parallel universe model used in Arizona through their Getting 
Ready program. For example, inmates with exemplary behavior may 
have a longer curfew. Those that misbehave may be denied 
certain privileges, such as making phone calls and, for 
example, also access to the mail and other things, except for 
their attorneys. And so this creates a positive incentive.
    By the same token, we know through things like the HOPE 
program, swift and certain sanctions work. And so there is a 
role for 24-hour timeout for example. But, again, we have to 
make sure that we are not overusing solitary confinement for 
long periods.
    One of the--perhaps the strongest incentives is, of course, 
earned time, and I will tell you we are very pleased that 
Senator Cornyn, Senator Whitehouse, and other Members are 
supporting earned time legislation, particularly for nonviolent 
offenders in the Federal system. Clearly, by reducing the 
number of dead-enders, we can make sure folks have an incentive 
for good behavior in prison. And also, by the way, a study has 
shown 36 percent fewer new offenses for those released to 
parole as opposed to discharge without supervision.
    I want to go over a list of recommendations that we would 
urge you to do in addition to, of course, ending the release 
directly from solitary confinement. Those include eliminating 
rules that deny any reading materials to those in solitary 
confinement; improving training in de-escalation techniques for 
prison personnel; training in mental retardation and mental 
illness; also using that parallel universe model that creates 
incentives for positive behavior and self-improvement; creating 
a matrix of intermediate sanctions.
    Now, this would not be for those who do serious bodily 
injury to a staff member or other inmate who, of course, should 
go to solitary for an extensive period. But for those that 
commit minor violations bars, that they would have intermediate 
sanctions that can be used to get their attention and correct 
the behavior before it leads to solitary.
    Reducing the number of dead-enders through the earned time 
policy, the missioned housing, which was mentioned earlier, for 
those who, for example, are in protective custody, former 
police officers, those who are mentally ill, those who are in 
the process of leading a gang. Unfortunately, those individuals 
often end up in the same 23-hour-a-day cell as those who are 
being punished for disciplinary violations when we know these 
smaller housing communities with a better staff/inmate ratio 
can address that issue.
    And I will tell you that if we can address the 
overcrowding, that helps immensely, because when you have 
inmates piled in day rooms with inadequate staff ratio, that 
makes it more difficult to defuse the very tensions that often 
lead to placement in solitary confinement.
    So I want to thank the Committee for their work on this, 
and I truly believe we are on the path to solutions that will 
both increase our order in prisons and make the public safer 
when these inmates are discharged.
    [The prepared statement of Mr. Levin appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Levin.
    Again, thanks to the entire panel. A special thanks to Ms. 
Kerman and Mr. Thibodeaux for coming and speaking openly about 
their own experience in incarceration.
    Mr. Thibodeaux, I have read your testimony three times. It 
is that compelling. And I invite you now in a few minutes to 
summarize it, and then we will ask some questions.

                 STATEMENT OF DAMON THIBODEAUX,
                     MINNEAPOLIS, MINNESOTA

    Mr. Thibodeaux. Thank you. Chairman Durbin, Ranking Member 
Cruz, and Members of the Subcommittee, thank you for inviting 
me to speak about my 15 years in solitary confinement on death 
row at the Louisiana State Penitentiary at Angola.
    I am here because, in September 2012, I became the 141st 
actually innocent death row exoneree since the U.S. Supreme 
Court reinstated capital punishment in 1976. But before I was 
exonerated and released, I was subjected to solitary 
confinement for 23 hours a day for 15 years between the ages of 
23 and 38. This experience was all the more painful and cruel 
because I had not committed the crime for which I had been 
sentenced to die.
    In my written statement, I describe the physical and mental 
torture that inmates in solitary confinement suffer. The diet 
is horrible. The heat and cold are often unbearable. And normal 
physical and mental activity, human contact, and access to 
health care are severely limited.
    As harmful as these conditions are, life in solitary is 
made all the worse because it is often a hopeless existence. 
Humans cannot survive without food and water. They cannot 
survive without sleep. But they also cannot survive without 
hope.
    Years on end in solitary, particularly on death row, will 
drain that hope from anyone because in solitary there is 
nothing to live for.
    I know this because I lost my hope after realizing what my 
existence would be like for years on end until I was either 
executed or exonerated. I was on the verge of committing what 
was basically suicide by State by voluntarily giving up my 
legal rights and allowing the State to carry out the sentence 
of death, something that would have been done only a few weeks 
after signing the necessary paperwork. My lawyer, Denise 
LeBoeuf, talked me out of doing that by convincing me that I 
would be exonerated and released someday, and that is why I was 
able to regain my hope and became willing to continue my legal 
fight.
    I was one of the fortunate on death row because I had 
Denise and my other lawyers and supporters, but the State 
effectively kills most men in solitary years before it injects 
them with any lethal drugs.
    I can see no reason to subject anyone to this type of 
existence, no matter how certain we are that they are guilty of 
a horrible crime and are among the worst of the worst. Even if 
we want to punish them severely, we should refrain from this 
form of confinement and treatment only because it is the humane 
and moral thing for us to do.
    My religious faith teaches that we should be humane and 
caring for all people, saint and sinner alike. What does it say 
about us as a Nation that even before the law allows the State 
to execute a person, we are willing to let it kill them bit by 
bit and day by day by subjecting them to solitary confinement?
    I do not condone what those who have killed and committed 
other serious offenses have done. But I also do not condone 
what we do to them when we put them in solitary for years on 
end and treat them as subhuman. We are better than that. As a 
civilized society, we should be better than that.
    I would like to believe that the vast majority of the 
people in the United States would be appalled if they knew what 
we are doing to inmates in solitary confinement and understood 
that we are torturing them for reasons that have little, if 
anything, to do with protecting other inmates or prison guards 
from them. It is torture, pure and simple, no matter what else 
we want to call it. I would like to think that we can all agree 
that our Constitution prohibits it.
    I thank the Subcommittee for looking at the situation and 
educating the public about it, and I am pleased to answer any 
questions you may ask.
    [The prepared statement of Mr. Thibodeaux appears as a 
submission for the record.]
    Chairman Durbin. Mr. Thibodeaux, in the opening statement I 
talked about the inmate that I met who said, ``I got an extra 
50 years because I told them if they put somebody in the cell, 
I would kill him, and I did.'' It was a stunning, cold-blooded 
statement.
    Did you run into similar circumstances of other inmates who 
were that dangerous?
    Mr. Thibodeaux. There was one. He volunteered for 
execution, and that is why he dropped his appeals, because he 
stated that if he ever got out, he would do it again.
    Chairman Durbin. What is the right thing to do with that 
kind of person based on what you have seen in your--I do not 
know how to describe it--incredible life experience?
    Mr. Thibodeaux. Well, I have also--I have also come in 
contact with individuals who are in prison rightfully, they are 
on death row. And they make no attempt to profess their 
innocence. They just would prefer life as opposed to death. But 
someone who would make a statement like that to kill someone 
that is put in the cell with him, just leave him in the cell by 
themselves. You let them out at appropriate times. You do not 
just lock them in a hole and forget about them. You know, if I 
was to do that or you were to do that to someone in your home, 
you would go to prison for that. It is inhumane.
    Chairman Durbin. Thank you.
    Ms. Kerman, I know that Senator Hirono and others may raise 
the question about women, incarcerated women, and you have 
been--you have lived that and you know the vulnerabilities they 
have. I think about other categories, those who are being held 
for immigration offenses, which are technical violations--they 
are not crimes per se; I mean, it is a violation of law, there 
is no question about it, but it is not a question of a violent 
crime or anything like that--and the vulnerability they would 
have because of language and culture and threat of deportation. 
What can you tell us about those women and what they face?
    Ms. Kerman. Women who have not been convicted of a crime 
and yet are held in confinement and potentially subjected to 
solitary confinement for any variety of reasons, that is a 
horrifying thought. Too often solitary confinement is used not 
to control people who are truly dangerous to themselves or 
others but as a tool of control within an institution when 
other management tools of an institution, whether it be a 
detention center or whether it be a prison or jail, would be 
far more humane and likely more effective.
    Chairman Durbin. Was there any recourse at Danbury in terms 
of a person or office that you could contact as an inmate if 
you saw or felt you were being threatened by a guard, for 
example?
    Ms. Kerman. Your best chance, if you felt that you were 
under threat and in danger from either a staffer or, frankly, 
from another prisoner would be if you had contact with the 
outside world, and different prisoners have different degrees 
of contact with the outside world. Frankly, a prisoner like 
myself, who is middle class and has a lot of access, you know, 
money on my phone account, and so on and so forth, has a much 
better chance at gaining recourse if I was subjected to either 
sexual abuse or any other kind of abuse. But within a prison 
system, it is a very slippery slope to try to gain justice, and 
inmates have a very limited trust of prison officials unless a 
prison is run in a way that is transparent and humane in the 
first place.
    So, you know, there is a medium-security men's State prison 
I visited in Ohio a number of times. It is run in a very, very 
different way than any prison I was ever held in. And the 
warden there is a really remarkable person. So different 
institutions are run in very different ways, and it makes all 
the difference in terms of whether a prisoner who is being 
targeted for abuse, whether it is by staff or by another 
prisoner, feels comfortable seeking justice.
    Chairman Durbin. Mr. Thibodeaux, how much contact did you 
have with the outside world in your 15-year experience?
    Mr. Thibodeaux. I had five contact visits with my family in 
the 15 years I was there.
    Chairman Durbin. How often were you able to meet with your 
attorney?
    Mr. Thibodeaux. Whenever they got out to visit. I had a law 
firm from Minneapolis on my case as well. They probably saw me 
there three, maybe four times.
    Chairman Durbin. In 15 years?
    Mr. Thibodeaux. In 15 years. But I was more concerned with 
the case work they were doing. If they wanted to come and visit 
me, fine. Being in a cell like that, you kind of cherish the 
visits, you know? But I was more concerned with the progress 
that was being made in my case.
    Chairman Durbin. Mr. Raemisch, there was a point in 
Director Samuels' testimony that really kind of stunned me. I 
think what I heard him say--and I want to make sure I do not 
misstate it. He thought that 4 percent of the Federal 
population in prison suffered from mental illness. I may be off 
on that number, but not too far off. I have heard numbers about 
people with mental illness challenges in prisons, State and 
otherwise, dramatically higher than that. What is your 
impression about the question of mental illness and 
incarceration?
    Mr. Raemisch. I am not sure--I cannot speak for him, and I 
believe the 4 percent was right that he said. But what went 
through my mind was it is very possible he was talking about 
those that fall within the definition of major mentally ill, 
which our number is about 4 percent, but our mental health 
needs that do not fall into that major category is 34 percent, 
so it is about a third of our population. I can tell you that 
about 70 percent of our population has some type of drug and/or 
alcohol problem also to throw into the mix.
    Chairman Durbin. And what we found in the first hearing was 
that many people with--mentally challenged people, and I cannot 
tell you what levels, but many mentally challenges people found 
it difficult to follow the rules as well as they should have, 
and any type of resistance on their part, because either they 
wanted to resist or they were mentally challenged, was answered 
with segregation.
    Mr. Raemisch. Let me give you the example I give when I 
speak publicly about it. If I was walking down the sidewalk 
past the bus stop and someone was mumbling fairly loudly to 
themselves, like is often the case, we would keep walking and 
understand that there was some type of mental health issue. 
Typically, in an institution that would probably get someone, 
if they were disrupting the day-to-day activities of the 
institution, would get themselves into an administrative seg 
cell.
    So what I have said--and I cannot stress this enough--in my 
mind is that administrative segregation is used, except for the 
extremely dangerous, is used to allow an institution to run 
more efficiently. It suspends the problem at best, but 
multiplies it at its worst. And so it does run more efficiently 
until you let that person out of there. And if you have not 
addressed what got him in there to begin with, you have done 
nothing. And that is the problem with the mentally ill, is what 
I struggle with and what we are trying to change in Colorado 
and we are making great progress, is how can you hold someone 
accountable if they do not understand the rule they broke to 
begin with. It is a no-win situation.
    Chairman Durbin. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. I would like to 
thank each of the witnesses for coming here and for giving your 
testimony. And I would also like to thank you for your advocacy 
and involvement with the justice system and advocating on 
behalf of those who are incarcerated.
    And, in particular, Mr. Thibodeaux, I would like to thank 
you for your powerful and moving testimony. When I was a lawyer 
in private practice, I had the opportunity to represent John 
Thompson, who is another individual who was wrongfully 
convicted of murder in Louisiana and sentenced to death, and he 
was subsequently exonerated, and it was a powerful experience 
personally, having the opportunity to get to know Mr. Thompson 
and to represent him both in the court of appeals and the U.S. 
Supreme Court. And so let me echo the Chairman's comment to 
apologize to you for the ordeal you endured.
    Mr. Thibodeaux. Thank you, sir.
    Senator Cruz. And thank you for having the courage to speak 
out about it, because that cannot be easy to do.
    Mr. Thibodeaux. No.
    Senator Cruz. This issue is an issue that raises 
complicated issues because you have got conflicting interests. 
Mr. Raemisch, I would like to ask, in your judgment, with what 
frequency is solitary confinement used for relatively minor 
infractions?
    Mr. Raemisch. I can only at this point give you my 
impression, and my impression is that it is incredibly overused 
in that area. I was talking during the break that really the 
process has not changed in over 100 years, and I try and think 
of what is still being done 100 years ago that is being done 
today that should be done, and I cannot think of anything. And 
so when I look at that whole process, it again has become a 
tool to make a facility run more efficiently, and that part of 
our mission we are failing, because we are sending them out 
into the community worse than they came in. And I believe that 
is what lengthy periods of time in administrative segregation 
does.
    You know, if I may just say, when I hear some of the 
comments--and I spoke at John Jay University a few weeks ago on 
some issues in corrections, and sitting next to me was the 
director of the Texas Corrections and Florida--or California 
Corrections, some pretty big systems. And when I was asked a 
question by one of the audience members, I said--and I pointed 
to the others, ``Welcome to the knuckle-dragging thug club,'' 
because the public perception is, that is what we are. And if I 
can stress one thing--and I saw Mr. Samuels try and stress it, 
and I would also--it is that at one time early in my law 
enforcement career, I may have had that same impression. But I 
truly have to tell you that overall I have never seen a more 
dedicated professional group of men and women that risk their 
lives, and they do it because they want to have a safer 
community and they put themselves at great risk to do that.
    That aside, like any large bureaucracy--and we tend to be 
the largest in each State, or close to it; I have 6,000 
employees--you end up with problems. And it is how we react to 
those problems, and that is why right now, one, I really 
appreciate what you have done by calling this hearing; and, 
two, by having me participate, because I can tell you that I do 
not know of any State in the Nation through ASCA right now that 
is not taking a very hard look at their administrative 
segregation policies. You have really brought it to the 
forefront. We all understand that, as professionals, the 
movement is to this is not the right way we should be treating 
people and we get that.
    What we do ask for is help in finding some solutions, 
because there are some that are too dangerous that they cannot 
be let out. But I also have to stress that is a small number.
    Senator Cruz. Thank you, Mr. Raemisch.
    In your written testimony, you stated that while the goal 
of many of the reforms is to decrease the number of offenders 
housed in administrative segregation, ``there will always be a 
need for a prison within a prison. Some offenders will need to 
be isolated to provide a secure environment for both staff and 
offenders.'' It strikes me that a great many people would think 
that solitary confinement, particularly for an extended period 
of time, is not an appropriate punishment for relatively minor 
infractions but could well be a necessary tool for the most 
violent inmates who may pose a real threat to the safety of 
other inmates or of guards.
    Each of the members of this panel has interacted with the 
criminal justice system in different capacities, Ms. Kerman and 
Mr. Thibodeaux as inmates, Mr. Raemisch administering a 
correctional institution and system, Mr. DeRoche ministering 
and helping bring hope and redemption to those incarcerated, 
Mr. Levin studying the important justice issues.
    A question I would ask of all five of you is: In your 
judgment, based on the different experiences you have had, is 
there an appropriate role for solitary confinement? Is there a 
need for it? And in what circumstances, if at all? And I would 
welcome the views of all five witnesses.
    Mr. Raemisch. In my mind right now, yes, but in a limited 
sense. And that is because I have said that there are some 
diseases for which there are no cure right now, and that does 
not mean we do not keep trying to find the cure for the 
disease. But what I have been told by my head clinicians is 
that we have four to five in our system that, if they are let 
out of administrative segregation, they will kill someone. And 
they lay that responsibility on me, and I get that.
    But I also understand that in all other areas there is so 
much room for improvement. Let us figure that group out a 
little while from now. Let us take care of all the other 
numbers that are sitting in administrative segregation that at 
this point I think there are many other alternatives other than 
keeping them there.
    Mr. Levin. Yes, that is an excellent question. I would, 
first of all, say we have to distinguish 24-hour or even 72-
hour placement to defuse a situation from long term. In Texas 
State prisons, the average time in solitary is 4 years. So some 
served as long as 24 years.
    The other issue is in Texas, thousands are placed in 
solitary confinement solely for being suspected gang members 
upon initially entering prison, having committed no 
disciplinary violations. And I think it is critical that--and I 
question the extent to which we are doing that in Texas. We 
have gone down in our total solitary confinement by over 1,000 
in the last couple years since we started bringing this up at 
the legislature, and there is an ongoing study in Texas, an 
independent study that the legislature approved last session. 
But I think that one of the issues you brought up, 
Commissioner, that I think is very important is if you have got 
somebody in solitary who is 23 hours, no stimulation, having 
them be able to earn an hour more this month, okay, in 
programming and such so that they can get out or gradually work 
their way toward more interaction. And so that is a great idea, 
and I think generally speaking, as I have said, the more you 
can create both positive incentives and graduated sanctions for 
inmates to address disciplinary issues, that is going to be 
able to make sure that--people in long-term solitary 
confinement really should be those that have done harm to other 
inmates or staff or made statements indicating that they intend 
to do that. And, again, the short term can be used, 24 to 72 
hours, to defuse. But even that, we have heard about the SIT 
teams, there is de-escalation training, there are things--just 
making sure there is no overcrowding and there are proper 
ratios, that can defuse a lot of the tensions that lead to 
violence behind bars.
    Mr. DeRoche. There is a study, Senator, that was done in 
Minnesota for a faith-based dorm that we have run there for 
more than 10 years, but it was a 10-year study of every single 
inmate that went through that program, and it found that there 
was a 0.8-percent recidivism rate, and that was every type of 
prisoner that went through there from, you know, the worst of 
the worst on through. And at the same time, it found that there 
was no deviation between the technical violations of the people 
that went through that program and the general population in 
Minnesota, which had a 37-percent recidivism rate. In other 
words, human beings were still going to be human beings even if 
they have moved away from a criminal lifestyle.
    So I do think that, the Director's comments about technical 
violations, that we should take to heart that, boy, that is the 
same type of behavior I see in my kids, that is the same type 
of behavior I see in the workplace. And guess what? When we 
study it and we find a bunch of people moved away from criminal 
activity, they are still going to get it wrong on a technical 
side of how they get through a day. And so we need to take that 
seriously of--what I started my statement with, if you want to 
change the culture on the outside in our cities and in our 
States, we have got to change the culture on the inside. And I 
am so impressed and encouraged to hear people talking about 
going out, Mr. Chairman, and seeing, you know--and to the 
Director, his willingness to go see people who are doing it 
right, because there are prisons where the population, the 
people in the prisons have made a decision that they do not 
want to live in a bad downward spiraling culture. And when 
skilled wardens change that culture and they use very sparingly 
the use of segregation, with people knowing that they can 
return back to a positive and improving culture when they 
straighten their act out, that is where it is best used--
temporary, always with the invitation of working your way back, 
because these corrections officers do have the responsibility, 
the same as the noble people that serve in our fire departments 
and our police departments, they are supposed to be making it 
more safe for us as taxpayers. When these people leave, they 
have got a difficult job. But we have got to empower them, we 
have got to train them, and we have to hold them accountable. 
We have to have oversight like we do in the other professions. 
When you are using this power, how is it being meted out, and 
to what end, to what results, what outcomes, what metrics? 
Because we can do a far better job than we are, Senator, but it 
should--you are not going to be able to eliminate it, if that 
is what you are asking for.
    Ms. Kerman. I do not believe that solitary confinement has 
a rehabilitative value, and, therefore, I think that it should 
not be used other than for the most serious security concerns.
    What I have seen solitary confinement used most often is 
that disciplinary seg, not ad seg. It is true that women often 
do not go into ad seg, though sometimes they do spend years and 
years in solitary confinement. I can only emphasize that there 
is nothing rehabilitative about being locked into a tiny box 
for 23 hours a day. And so correctional systems should take 
very seriously their responsibility to rehabilitate and direct 
the tremendous amounts of taxpayer dollars that they consume 
toward that goal.
    Mr. Thibodeaux. In my 15 years in Angola, it got to a point 
where we were all being taken to the yard one at a time. When I 
got there, they were taking us one tier at a time. But an 
incident takes place, and everyone suffers the consequences, 
not just the person who commits the incident. And that is a 
real big minus in the system because it tells everyone else 
that, well, it does not matter if I am the model inmate because 
I am going to get punished if someone else does something wrong 
anyway, so why should I bother?
    If solitary confinement is going to be used for the worst 
of the worst, as it should because safety is the biggest issue 
in prison, because you--I mean, let us face it. We all agree 
that not everyone in prison is innocent. So if it is going to 
be used, know your limitations with it. You know, do not just 
lock someone up in a cell and forget about them. They are still 
a human being somewhere. They may have mental issues. They may 
have emotional issues. But if you identify that and find a way 
around it, then you can deal with it in a humane way. It does 
not have to be, okay, just put them in a jumpsuit and shower 
shoes and lock him in the cell for 23 hours a day.
    The one thing I wanted more of when I was in the cell is 
time out of the cell, you know? Sadly, that is not the reality. 
But if you want to have solitary confinement, use it in the 
most limited capacity possible.
    Senator Cruz. Well, thank you very much, to all five of 
you.
    Chairman Durbin. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I want to thank all of you for coming and testifying and 
shedding light on this issue, and I particularly want to thank 
Mr. Thibodeaux because your testimony was very--you have been 
there. As we say in Hawaii, mahalo for sharing your terrible 
experiences.
    I am especially concerned about reports that women are 
confined in solitary for reporting abuse, including sexual 
abuse, by the Bureau of Prisons staff, and especially as I have 
been working with Senator Gillibrand and other Senators to 
address the issue of sexual assault in the military, which is 
another institution where survivors of sexual assault can also 
be at the mercy of their supervisors in the chain of command 
due to the power dynamic and possible threats of retaliation 
that can exist in both of these environments. So I want to 
thank you, Ms. Kerman, for your testimony.
    And I do note that, Mr. Raemisch, you noted that 97 percent 
of our prisoners do get released into the community, so we 
really need to pay attention to what is happening with them 
because, as you say, Mr. Raemisch, they should come out better, 
not worse, than when they were in prison. And I think that is a 
sentiment that all of us would share.
    Ms. Kerman, you heard Director Samuels' responses to my 
questions about what happens in the instance of the abuse of 
power by the Bureau of Prisons personnel, especially with 
regard to women and sexual abuse. Having heard his responses, 
do you think that the Bureau of Prisons is doing enough to 
prevent and prosecute this kind of abuse of power by their 
staff?
    Ms. Kerman. No. I believe that in every women's prison and 
jail sexual abuse of women and girls by staff is a problem. In 
some places like Otter Creek, Kentucky, or Tutwiler Prison in 
Alabama, those abuses have been revealed to be systemic and 
very widespread and very sinister.
    What I observed during the time that I was locked up was 
that a staff member who was under suspicion for sexually 
abusing prisoners would be removed from direct contact with the 
prisoner or prisoners that he was accused--they were always men 
in the instances that I knew of, but they would still be there 
on the property. And, of course, a person is innocent until 
proven guilty. I firmly believe that. But many, many aspects of 
the experience of incarceration have that silencing effect: the 
fact that your abuser may not, in fact, be far away from you, 
may be in view, he might be driving perimeter in the facility 
in which you are held, and so you might, in fact, see him all 
the time; the fear of solitary confinement and isolation, I 
cannot overemphasize how powerful a disincentive that is.
    To go into the SHU for 90 days is a really long time, and 
typically during the type of SIS investigation that happens in 
the BOP, those investigations do not happen quickly. Not only 
will you deal with the pain of isolation, which is so well 
detailed in some of the written testimony which has been 
submitted to this Committee, but on a very practical level, you 
will lose your housing, you will lose your prison job, you will 
lose a host of privileges, obviously, if you are held in 
isolation.
    All of these things conspire to really, really silence 
women, and, of course, the concern about how much they can 
trust the people to whom they are supposed to report abuse is a 
very serious consideration.
    Senator Hirono. So there are all kinds of disincentives in 
the environment where reporting of these kinds of abuse of 
power does not readily occur. Do you have any thoughts on what 
we can do? And I am not even talking about using the threat of 
being put into solitary as a way to control and hide this kind 
of behavior on the part of the staff.
    Ms. Kerman. The best-case scenario is for female prisoners 
and, frankly, for all prisoners to have increased access to the 
outside world. So the person you would be most inclined to 
trust in terms of seeking redress against abuse would not 
necessarily be someone inside of the institution in which you 
live.
    Access to counsel is a tremendously important issue. The 
vast majority of prisoners in any system are indigent; you 
know, 80 percent of criminal defendants are too poor to afford 
a lawyer. And so their access to counsel, you know, before they 
are locked up is poor, and their access to counsel while they 
are locked up is negligible.
    So those are the things that would make the biggest 
difference, and, frankly, those things will make the biggest 
difference in their rehabilitation as well, not just in their 
ability to access justice while incarcerated, but also in their 
ability to be rehabilitated and to return safely to the 
community.
    The isolation of solitary confinement is just a small 
metaphor for the total isolation of incarceration, and when we 
put people to the margins, it makes it harder for them to 
return to the community.
    Senator Hirono. And I do not want to confine my questions 
on women and the deleterious effect, the negative effect, but 
for the rest of the panel, Ms. Kerman has said that maybe one 
of the ways that we can shed light on what is going on in our 
prison system--and I am not saying this is symptomatic of 
everything that is going on. It is a tough problem. But would 
you agree that providing more access to the outside world is 
one way that we can prevent some of these abuses of power from 
occurring within the system?
    Mr. Levin. Yes, and also an ombudsman. We had a scandal of 
sexual abuses in our juvenile State facilities in Texas in late 
2006, early 2007. One of the things we did was create an 
ombudsman's office which is not in the chain of command of any 
prison warden and actually reported directly to the commission, 
the Texas Youth Commission at that time, whose members were 
appointed by the Governor, so actually not reporting even to 
the paid director of the commission.
    So when you have an ombudsman who is not in the chain of 
command at a particular prison unit who these reports of abuses 
can go to, and that individual can then independently look into 
them, and certainly not everyone is accurate, but some of them 
are. And that way when it is not kept totally within the unit, 
there is more accountability and independence in examining 
that.
    Senator Hirono. Would the rest of you agree that that is 
one of the ways that we could help?
    Mr. DeRoche. I would say very much so, and we find at 
Prison Fellowship that the more that the prison lets folks in 
from the outside, the less problems that exist. It is an 
inverse relationship. And I think that that would continue.
    And I know the gravity for State or Federal officials--I 
saw it firsthand when I was Speaker of the House in Michigan. 
We had a mentally ill inmate found dead in his cell after being 
neglected for 72 hours and the cell was 110 degrees. And I 
fought that as hard as I could, but the gravity was we got 
this, we are going to do an investigation, we have got people, 
we are going to--and it did not get the satisfactory outcomes 
that you would get with the justice system on the outside.
    I think we need independent voices. I think people need 
immediate access, not a month later, to a phone call about 
something that has happened in their life, Senator.
    Senator Hirono. Thank you, Mr. Chairman. My time is up.
    Chairman Durbin. Thank you, Senator Hirono.
    I want to thank everyone who has testified here today. We 
have over 130 statements that have been submitted for the 
record. I will not read the names of all the groups, but I 
thank them each and every one. They will be made part of the 
record, without objection.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. I asked my staff to look up a quote which 
was in the back of my mind, and I got part of it right. It was 
Dostoevsky who said, ``The degree of civilization in a society 
can be judged by entering its prisons.'' And that is why this 
hearing and this testimony is so important.
    Our charge is to deal with issues involving the 
Constitution, civil rights, and human rights, and I think all 
three of those elements come together in what we are talking 
about today.
    There are some things that strike me as more or less 
consensus. We do not want to release people from segregation or 
solitary into society. The results are disastrous, and they 
have been well documented. We do not want to see children in 
solitary confinement or segregation, perhaps in the most 
extreme cases maybe, but otherwise no. We know the 
vulnerability of women in incarceration and even more so in 
segregation. And we certainly know the impact of mental illness 
on the behavior of prisoners and the problems that they run 
into once put in solitary confinement.
    If you get a chance to read Mr. Thibodeaux's testimony, do 
it, because he goes through in graphic detail elements of 
segregation or solitary confinement which should not be 
acceptable under any circumstances--under any circumstances--
where the food that you are given is barely edible, where there 
is virtually no medical care given to those who are in this 
situation, where--I was struck by the sentence where you said 
for 15 years you never saw the night sky or stars. It just is 
one of those gripping realizations when you think about what 
you have been through. The limited access you had to even keep 
your body fit, the limited access you had to outside visitors, 
even, as you said, you made a conscious choice that you did not 
want your son to see you there during that circumstance.
    All of these things suggest treatment which goes beyond 
incarceration. It really crosses the line, Mr. Raemisch, I 
think, in terms of what we should do to any human being, any 
fellow human being, and that is what this comes to.
    I thank you all for being here. This is not the last of 
these hearings until the problem is resolved. I do not know 
that it will ever be totally resolved, but we are moving on the 
right path. The first hearing started the conversation, and I 
sense that we are starting to move in the right direction at 
many different levels.
    I commend the States and I think Senator Cruz would join me 
in saying many of the States have shown a real willingness to 
take this issue on even more than we have, and I think it is 
important that they continue that and we learn from them in the 
process.
    So we are going to leave the record open for about a week. 
If you get some written questions, which you might--it is rare, 
but it happens--if you could respond and return them, we would 
appreciate that very much.
    Senator Cruz, thanks for being here, and, Senator Hirono, 
thank you as well.
    This meeting of the Subcommittee stands adjourned.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
